<html>
<title> - TESTIMONY CONCERNING LESSONS FROM THE 2010 TENNESSEE FLOOD</title>
<body><pre>[Senate Hearing 111-890]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-890
 
       TESTIMONY CONCERNING LESSONS FROM THE 2010 TENNESSEE FLOOD

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 22, 2010--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
61-746                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5433243b14372127203c3138247a373b397a">[email&#160;protected]</a>  

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
ROBERT C. BYRD, West Virginia        ROBERT F. BENNETT, Utah
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                          Molly Barackman-Eder



                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Byron L. Dorgan.....................     1
Opening Statement of Senator Robert F. Bennett...................     3
Statement of Senator Lamar Alexander.............................     3
Statement of Bob Corker, U.S. Senator from Tennessee.............     6
Statement of Jim Cooper, U.S. Representative from Tennessee......     7
Statement of Marsha Blackburn, U.S. Representative from 
  Tennnessee.....................................................     9
Statement of Lincoln Davis, U.S. Representative from Tennessee...    10
Statement of Steve Cohen, U.S. Representative from Tennessee.....    12
Statement of Major General John Peabody, Commander, Great Lakes 
  and Ohio River Division, Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................    13
    Prepared Statement...........................................    15
What Happened....................................................    15
After Action Review..............................................    16
Water Management.................................................    16
Emergency Management.............................................    17
Communications...................................................    17
Statement of Gary M. Carter, Director, Hydrologic Development, 
  National Weather Service, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................    17
    Prepared Statement...........................................    19
Weather Conditions...............................................    19
NOAA NWS Services................................................    20
Communication Challenges.........................................    21
National Integrated Water Resources Science and Services.........    22
Statement of James H. Bassham, Director, Tennessee Emergency 
  Management Agency..............................................    23
    Prepared Statement...........................................    25
Need for Improved Communications.................................    27
Improving Flood Forecasting......................................    30
Statement of Hon. Karl F. Dean, Mayor, City of Nashville, 
  Tennessee......................................................    32
    Prepared Statement...........................................    35
Statement of Hon. Richard L. Hodges, Mayor, City of Millington, 
  Tennessee......................................................    37
    Prepared Statement...........................................    40
Preparations.....................................................    40
Response.........................................................    40
Recovery.........................................................    41
Statement of Whit Adamson, President, Tennessee Association of 
  Broadcasters...................................................    42
    Prepared Statement...........................................    44
Broadcasting is the Most Important Source for Critical, Life-
  Saving Emergency Journalism for All Americans..................    44
Local Broadcast Stations Remain the Backbone of the Nation's 
  Emergency Alert System.........................................    46
Statement of Bert Mathews, Chairman of the Board of Directors, 
  Nashville Chamber of Commerce..................................    49
    Prepared Statement...........................................    51
Benefit of Forecast Improvements.................................    52
Impoving Emergency Information for Broadcasters..................    54
Benefits of Early Emergency Notification.........................    54


       TESTIMONY CONCERNING LESSONS FROM THE 2010 TENNESSEE FLOOD

                              ----------                              


                        THURSDAY, JULY 22, 2010

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Bennett, and Alexander.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. We're going to call the hearing to order.
    This is a hearing of the Energy and Water Appropriations 
Subcommittee. I very much appreciate all of you being here.
    It's a testament to the importance of this hearing that we 
have a number of Members of Congress who wish to make 
statements at the outset of this hearing.
    We're going to take testimony concerning the Cumberland 
River flooding that severely impacted Tennessee and surrounding 
States in May of this year.
    We'll hear, among others, from Senator Bob Corker, from 
Tennessee; Congressman Lincoln Davis, from the Fourth District; 
Congressman Jim Cooper, from the Fifth District; Congresswoman 
Marcia Blackburn, from the Seventh District; and Congressman 
Steve Cohen, from the Ninth District.
    We welcome all of you here.
    I will tell all of you that Senator Lamar Alexander has 
talked to me at length, on numerous occasions, about what has 
happened and the need for this subcommittee to hold this 
hearing. I'm very pleased to do that, and Senator Bennett is 
pleased to be a part of this as the ranking member of this 
subcommittee.
    I have to chair another committee hearing this morning at 
10 o'clock, so Senator Bennett will chair in my stead when I 
have to leave.
    After the statements by Members of Congress, we will 
receive testimony from two panels. The Panel 1 witnesses will 
include Major General John Peabody, who is the commander of the 
Great Lakes and Ohio River Division of the U.S. Army Corps of 
Engineers. We will receive testimony from Gary Carter, the 
director of the National Weather Service, and James Bassham, 
the director of the Tennessee Emergency Management Agencies.
    The witnesses for our second panel will include The 
Honorable Karl Dean, mayor of the city of Nashville Tennessee; 
The Honorable Richard Hodges, mayor of the city of Millington, 
Tennessee; Whit Adamson, president of the Tennessee Association 
of Broadcasters; Bert Mathews, chairman of the board of 
directors of the National Chamber of Commerce.
    We appreciate all of you traveling to Washington, DC today 
to appear before us. We have 16 speakers on the agenda, so I 
want to ask that your oral statements be limited to 5 minutes, 
and we will include all of the full statements as part of the 
permanent record.
    As you are aware, one of the agencies that the Energy and 
Water Subcommittee funds is the U.S. Army Corps of Engineers. 
Their budget represents only about 15 percent of our overall 
energy and water bill, and yet the work they do touches 
virtually every State in this Nation, and a good many 
communities around the country, and a majority of our citizens.
    The flood risk management navigation and environmental 
restoration projects that they study, construct, and operate, 
and maintain, are significant boosts to our national economy, 
and help maintain our standard of living. Although it may not 
seem like it after an event such as the type that you have just 
experienced, you are fortunate, in the Cumberland River Valley, 
to have a number of completed flood control projects to help 
manage flooding in the valley. Flooding is not the threat in 
the valley that it once was, but this year reminds us, flooding 
does remain a very serious threat.
    We're not so lucky in the Red River Valley in North Dakota. 
In the Fargo area, the Red River has exceeded flood stage in 52 
of the last 108 years, and we are working with the Corps of 
Engineers on that subject, as well.
    I flew into Nashville the morning after the flood. It was 
just serendipitous, because the head of FEMA was in North 
Dakota the day before and I was going to fly back to Washington 
with the head of FEMA. So, I actually saw, the very next 
morning, the unbelievable flooding, from the window of an 
airplane landing in Nashville. It was extraordinary. I mean, it 
kind of defies your notion of what's possible when you see the 
massive amount of water that was in that area, and the damage 
that was done. I didn't see the damage close up, but I saw it 
from enough of a distance to understand the substantial damage.
    You had very little warning. I know that in 36 hours you 
received 17 to 20 inches of rain, depending on the location. 
This is something like a third of your annual rainfall. I think 
all of us can agree that there's no system that really can 
contain that very effectively.
    My heart goes out to all of those that have been 
disadvantaged and injured and have had their lives turned 
upside down because of this act of nature, and I want to do 
everything that we can. I know that Senator Alexander and 
others of you from your State have spoken to all of us 
repeatedly about what has happened and what needs to be done to 
respond to it.
    So, I thank all of you for coming. As I indicated, I will 
have to leave to chair another committee hearing in about 20 
minutes. Senator Bennett will then continue. I would like to 
call on the ranking member, Senator Bennett, and then call on 
Senator Alexander for an opening statement, as well.


             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT


    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate you holding the hearing.
    And, like you, I reflect on the impact of floods. We've 
spent billions of dollars--Federal, State and local--to try to 
alleviate flooding in this country over the last 200-plus 
years. But, we still have significant flooding, and it almost 
always comes without any warning.
    Even in my own home State of Utah, people say, ``Utah is 
the desert. How can you have flooding in a desert?'' Well, I 
can assure you that it happens, and it takes a lot less than 17 
inches to do it. In 2005, we had a rain and snow combination in 
southwestern Utah and the southeastern part of Nevada, that 
caused significant flooding in the Santa Clara and Virgin 
Rivers in Washington County, near St. George. Pleasant little 
streams that people would wade across for recreation when they 
had water in them--a good part of the year they had none and 
were completely dry--suddenly became raging torrents that would 
pick up a home and carry it down the stream, ripping it off its 
foundation and sweeping it down by the currents. And it was the 
Army Corps of Engineers, along with the Natural Resources 
Conservation Service that helped us deal with that.
    So, I have great understanding of how things can happen 
very rapidly, without any sort of warning. And the pictures 
that we have around the room just remind us of how powerful 
water can be, and how puny human efforts to try to hold it back 
can be, no matter how much money we spend.
    So, we need to have this kind of hearing. We need to 
understand and do the best we can to prepare for future floods. 
I look forward to the statements of the Members of Congress as 
well as the testimony of the others who will be here.
    Senator Dorgan. Senator Bennett, thank you very much.
    And let me say, while Senator Alexander is a member of this 
subcommittee and has been pushing to create this hearing, and 
I'm happy to do that--Senator Corker, similarly, has been 
aggressive in making certain that we have these kinds of 
hearings, and making certain that we understand the needs of 
the State of Tennessee with respect to flood protection.
    So, Senator Corker, thank you for your work, as well.
    Senator Alexander.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thanks, Mr. Chairman.
    I--first, I want to thank Senator Dorgan and Senator 
Bennett for focusing attention on the Nashville--on the 
Tennessee flood of 2010, and thank Senator Corker for his hard 
work here, and the Members of Congress, who will testify in 
just a moment, and the witnesses who've come from Tennessee, 
all of whom have busy jobs at home, and busy schedules. And so, 
we thank each of you for coming.
    There are two reasons, in my view, for this hearing. The 
first is to remind ourselves, and the Nation, of what a 
disaster this was. This is the largest natural disaster in this 
country since President Obama took office. And it--and FEMA 
tells me that it's been 2008 since any disaster in this country 
has required as much money or attention as this one has. It's 
been overshadowed by the oil spill, which is tragic, and is not 
a natural disaster, but, I've heard from many people around the 
country, and I would say this to those who are here from 
Tennessee, about how proud the country is of the response 
Tennesseans have had to the flood. Instead of looting and 
complaining, Tennesseans have been cleaning up and helping each 
other and have made quite a name for themselves around this 
country, in terms of response to a tragedy.
    The executive summary of the Corps of Engineers says it 
this way, that a 36-hour rainfall event on the first weekend in 
May of this year produced record flooding, in their words, 
``far greater than a 1,000-year rain event.'' They described 
the management of the waters as ``dynamic and dangerous.'' And 
all of us from different perspectives, from Nashville to 
Millington, Clarksville, Ashland City, have seen the incredible 
results. These are the photographs from Nashville and 
Millington. Opryland Hotel had 10 feet of water shortly after 
1,500 people were evacuated.
    Senator Corker and I were in--and all the Members of 
Congress--were in various places, seeing what had happened.
    Forty-six counties were declared a disaster area. Sixty-
four thousand Tennesseans in just the last 2\1/2\ months have 
registered with FEMA to receive aid. The aid that has come to 
them has been nearly a quarter of a billion dollars. Many 
Tennesseans simply didn't ask for any aid. They just fixed 
their basements up, spent their own money, and went about their 
ways. There's a lot more remaining to be done.
    We saw examples of heroism--for example, in Clarksville, 
where the soldiers took a day off and cleaned up three 
communities. Congressman Blackburn and I saw that. We were 
there on that day in Dyer County, in Millington, where Senator 
Corker and I visited in Memphis.
    This is about Tennessee's flood in 2010, but, as Senator 
Dorgan and Senator Bennett said, flooding is a national 
phenomenon. Three out of four of the federally declared 
disasters in this country over the last 5 years have been 
floods, so it's what we work with when we talk about disasters. 
One of the unfortunate things is that many in the Nashville 
area didn't know about flood insurance. Many are eligible, very 
few had it. And that's one of the lessons that we need to work 
on.
    The main goal of this hearing is to find out what happened 
on April 30, May 1, and May 2, and what lessons can be learned 
as we prepare for future floods. The Army Corps of Engineers 
after-action report will be presented for the first time today. 
We look forward to getting answers. Some of the questions that 
are likely to be asked are; could water levels have been lower 
at Old Hickory Dam? And, if they had been lower, would that 
have resulted in less water in downtown Nashville? Could there 
been better forecasts if the Corps of Engineers and the Weather 
Service had understood each other better? The after-action 
report very candidly says that there's a lack of communication 
there, based upon a misunderstanding, or a lack of 
understanding, of each other's procedures. What was the effect 
of a lack of equipment? For 11 hours, the Internet was down 
during the height of the flood. And what difference did that 
make in letting people know what was coming, in terms of flood 
levels, so they might have saved valuable treasures, their 
homes, or even their lives?
    We've done a great job with forecasting tornados, and 
improving that forecast, the Weather Service and other agencies 
have, working with broadcasters, who are also here today. You 
can tell that a tornado--if you turn on the television, you can 
tell a tornado is coming down your street, and exactly what 
time it's going to hit your house. That wasn't true 10 years 
ago. There have been great advances not only in gathering 
accurate information, but providing it to people in a timely 
and accurate way so they can take action to prevent damage or 
save their lives. Can we do that same kind of thing with a 
different phenomenon, like rising water?
    And then there are questions about personnel. This happened 
on a weekend in an agency that says it doesn't have very many 
staff members, to begin with, to deal with it, so they weren't 
there, some of them. Those who were, in some cases acted 
heroically. And some had a hard time getting back to do 
anything, because they were going through floodwaters.
    So, what are the lessons that we can learn from this 
tragedy to make sure that when flooding comes again, as it 
surely will, that we can save more property and perhaps save 
more lives?
    Mr. Chairman, those are the questions--some of the 
questions that we'll have. I'm grateful for everyone coming. We 
hope to conclude this by noon, because we have votes in the 
Senate. And so, I have a lot of questions I won't be able to 
ask, but I'll submit them to the witnesses who are here today. 
And, I know, Senator Bennett that we'll try to keep witnesses 
to a reasonable amount of time and still hear their stories so 
that we can get the full story on the record.
    This would be, I'd say, Mr. Chairman, the first step in a 
straight-down-the-middle effort to find out what happened and 
what lessons can be learned for the future.
    Senator Dorgan. Senator Alexander, thank you very much.
    Let me call on Senator Corker, as the first witness, and 
then let me ask, Senator Alexander, if you would, to introduce 
the Members of Congress from your State as they are prepared to 
testify.
    Let me emphasize, as well, because of the large number of 
witnesses, we really would like to stick to the 5-minute rule. 
Having served in the U.S. House previously, I know there's a 1-
minute rule in the House, so they are much more practiced at 
this brevity than we are in the Senate.
    Senator Corker, again, thank you for your work on this, and 
your continued focus on this issue. We welcome you here. You 
may proceed.
    Senator Corker. Thank you, Mr. Chairman, I very much 
appreciate you having this hearing. I'll certainly set the pace 
on brevity.
STATEMENT OF BOB CORKER, U.S. SENATOR FROM TENNESSEE
    Senator Corker. Senator Bennett, I thank you for having 
this hearing, also. And, as always, it's a great pleasure to 
serve with Senator Alexander. I really appreciate the way he 
has focused on this issue.
    I'm proud to be here with colleagues from across our State. 
We enjoy working with each other, and I think our State 
actually sets a tone for the country in our ability to work 
together through crises and other problems, and I think that's 
why the State is why the way it is.
    In the beginning of May, Tennessee, as Senator Alexander 
mentioned, had the greatest natural disaster during this 
administration, and Tennesseans acted the way I think we all 
expected them to act; they helped each other. It's amazing the 
way Tennesseans came together. And so many people were 
devastated, as you can see by the photos around the wall.
    In that same vein, where Tennesseans, I think, set an 
example of the greatness of this country, we have with us today 
General Bassham, who's outstanding, he represents our Governor, 
who did such a marvelous job handling this crisis. We have 
Mayor Dean, Mayor Hodges, again, exemplifying the greatness of 
our State; Mr. Adamson, representing the broadcasters, and Bert 
Mathews, a private citizen that represents our chamber. And the 
reason that they're here today is, in the same way that 
Tennesseans helped each other, they're here to help our 
country.
    As you mention, flooding takes place constantly across our 
country. In this particular episode, there were communication 
gaps, no doubt. There were things that could have been done 
better. And while many Tennesseans have been devastated as a 
result of some of those gaps, some of these things might not 
have occurred quite the same way. They're here to help us 
learn. And I thank all of those who are contributing to that. I 
know the Corps of Engineers is looking forward to making their 
presentation.
    So, without further adieu, Mr. Chairman, I thank you for 
this. I'm proud to represent a State that conducts itself the 
way that it does.
    And I thank all these Tennesseans who are here today to 
help our country navigate through future disasters and 
certainly learn from what just occurred.
    Thank you very much.
    Senator Dorgan. Senator Corker, thank you very much.
    Senator Alexander, do you want to introduce the Members of 
Congress?
    Senator Alexander. Sure, and I'll do it briefly.
    Senator Cooper--Representative Cooper represents Nashville, 
and has been--has just completed a series of three articles 
about the flood. I'm sure he'll talk about that.
    Congressman Blackburn stayed in Tennessee for--from--she 
represents Tennessee from Memphis to Nashville, so virtually 
her entire district was flooded, and she was on the scene there 
that whole week. I saw her everywhere I went, and she was a lot 
of places I was.
    And Congressman Davis is from the--a more eastern part, but 
much of the Cumberland River area lies in his district.
    And, of course, Congressman Cohen represents the Memphis 
area. We've heard a lot about Nashville, but this flooding went 
all the way down to the Mississippi River to Dyersburg and to 
Millington. The Mayor of Millington is here, and we'll hear 
from him.
    So, I thank the four of you for our working together and 
for being here.
    Senator Dorgan. Congressman Cooper, you may proceed.

STATEMENT OF JIM COOPER, U.S. REPRESENTATIVE FROM 
            TENNESSEE
    Mr. Cooper. Thank you, Senator Dorgan, Senator Bennett, 
Senator Alexander, my friends. And I appreciate the chance to 
work with you on a bipartisan basis to solve this problem.
    The national news media may have downplayed the 2010 flood, 
but the world looked on in admiration as Tennesseans banded 
together to rebuild. Neighbors helped neighbors, churches 
helped everybody. We all pulled together to lift ourselves from 
the flood. We did it without Government help at first, and then 
we were thankful for the Government assistance from FEMA and 
SBA and other agencies. People back home, as you know, are 
still volunteering, still donating, and still wearing the ``We 
are Nashville'' T-shirts to help everybody bounce back from the 
flood.
    The sad truth, however, is that thousands of people are 
still hurting and that nothing we can do can make them whole.
    One of the spookiest things about the flood was that cars 
were lost in driveways, trucks in terminals, buses in garages, 
because people had so little warning. Families went to bed at 
night, thinking they were safe, when they weren't. Who knew, 
for example, in advance, that parts of our interstate highway 
system were unsafe and would be flooded? And I just learned 
yesterday that one of our State's largest employers, A.O. Smith 
in Ashland City, a company that's used to dealing with the 
Cumberland River, lost 60,000 water heaters that were packed 
and ready for shipment.
    I welcome the Corps' after-action report that was released 
yesterday. The Corps obviously worked hard on the document, and 
it is a good beginning to understanding what happened. The 
Corps itself, however, still has a lot to learn about what 
happened, because, for example, they claim, falsely, on page 
29, that one of the major sections of Nashville flooded, when 
it, in fact, did not.
    The best way, I think, to understand the Corps' report is 
to say that it puts a cheerful face on some really ugly facts. 
The Corps admits to no less than 27 categories of problems with 
their performance during the 2010 flood, so it's hard to see 
how the Corps could give itself any sort of passing grade. 
Probably the ugliest findings are on page 62 of the report when 
the Corps admits that, on the crucial day, the morning of 
Sunday, May 2, when an elderly couple in Nashville had already 
drowned trying to get to church, only then did the Nashville 
Corps take the flood seriously enough to establish emergency 
operations.
    As the Corps admits, this key decision happened at least a 
day, and several lives, late. By then, the Cumberland River had 
already risen 15\1/2\ feet. As the Corps admits, they were so 
unprepared that they did not even have a standard operating 
procedure for 24/7 staffing, even though that's routine for 
TVA. The Corps had not read its Weather Service e-mails, 
determined who were essential or nonessential personnel, or 
even established a telephone tree. I know Boy Scout troops that 
are more prepared than this.
    A second ugly finding is this. After the Corps finally 
declared the emergency, on the morning of Sunday, May 2, the 
Corps did not fully inform the Weather Service, and therefore 
the general public, until 11 o'clock that night. This is 
inexplicable, inexcusable, this 16-hour delay before the public 
could know that the Cumberland River was rising an additional 
19 feet, just due to releases from one dam, the Old Hickory 
Dam, alone. Nineteen feet is the greater part of the 
devastating 32-foot rise in the Cumberland River, and hardly 
anyone knew it was happening. The release of such a flood of 
water from Old Hickory Dam was almost as if a water bomb were 
dropped on Nashville.
    The Corps now admits, in its report, that it should have 
made clear to the Weather Service, and therefore to the public, 
by at least 1:30 on Sunday afternoon, almost 10 hours earlier, 
that the Cumberland River was rising as if the Old Hickory Dam 
had literally disappeared.
    People downstream had a right to know this vital 
information. Of course, the Corps uses drier, more bureaucratic 
language to describe what happened. But, it states again, on 
page 62, that it, quote, ``assumed that the Weather Service 
would run its river forecasting models as if the project, the 
dam, were no longer present.'' These are sometimes called free-
flow or run-of-river conditions, similar to what would happen 
on the Cumberland River without any dams at all. The Corps 
still insists on calling this ``technical information,'' but it 
can literally mean life or death for people downstream.
    The Corps blames the Weather Service for not understanding 
hydraulics, but why on Earth couldn't the Corps warn them, and 
us, in plain English, of the worst disaster in modern Tennessee 
history? The Corps can't blame the breakdown of the Internet 
for this. The Corps was not able to explain the situation 
clearly while talking to the Weather Service on the telephone 
that afternoon.
    To fix this staggering breakdown in communications, the 
Corps is promising such things as annual flood tabletop 
exercises with other agencies, and electronic updates for what 
river levels could be. But, in my opinion, that's not good 
enough to protect Nashville.
    Thankfully, at least 3 hours before the Corps realized that 
the Weather Service had been relying on bad information from 
the Corps itself, alert managers at the Opryland Hotel, as 
Senator Alexander mentioned, had already evacuated their 
guests. This is the largest hotel in the world, outside of Las 
Vegas, and a huge part of Nashville's tourism industry. And 
only the eyeballs of alert hotel managers saved the day, not 
the Corps or the Weather Service.
    There are dozens of other very serious questions raised by 
the report. There were multiple failures of communications, 
failures of management, as well as heroic efforts by some 
dedicated and experienced individuals.
    The bottom line is, the report leaves no doubt that the 
Army Corps and the Weather Service could have, and should have, 
done a much, much better job. Without such improvements, 
Tennessee is seriously at risk.
    So thank you for calling this hearing, and I look forward 
to submitting additional points for the record.
    Senator Dorgan. Representative Cooper, thank you very much.
    Next, we'll hear from Representative Blackburn.

STATEMENT OF MARSHA BLACKBURN, U.S. REPRESENTATIVE FROM 
            TENNNESSEE
    Ms. Blackburn. Thank you, Mr. Chairman, Senator Alexander, 
thank you for calling the hearing today.
    As my colleagues and I know, we, in Washington, spend far 
too much time Monday-morning quarterbacking, and too often the 
hearings that we have, on either the House or the Senate side, 
are focused on things that went wrong with the Federal 
response. And too many times, we try to learn lessons that are 
born out of failure or incompetence or poor coordination.
    Tennessee's experience this spring, with the response to 
what occurred in this disaster, does offer a different type of 
lesson learned. And you're going to hear that from some of the 
local elected officials who are here today.
    Tennessee's lesson to Congress is about, and includes, what 
went right, as well as what went wrong, and how others can 
learn and use that information in the future.
    Mr. Chairman, I have a photo that is being put up on the 
dais right now. It's of a washed out road in my district, near 
Kingston Springs. It's the result of this 1,000-year flood 
event. The storms this May were stronger, and the waters higher 
and faster, than anyone could ever have predicted. Their like 
will probably not be seen again in our lifetime. The road you 
see in this picture was washed, not just a few yards, but a 
half a football field away from its original bed. It lies atop 
foundations that once were homes, homes that were found miles 
downriver.
    Neighbors and local first responders acted quickly, pulling 
people from floodwaters, cars, and the ruin of their homes. 
Tennesseans acted heroically during the flood and in the weeks 
and months following it, and they deserve all the praise that 
this Congress can bestow on them.
    For many, this was the first time in recent memory that 
citizens, trying to help in their response, were actually aided 
and not hindered by Federal authorities, who were working hard, 
working transparently, working with single purpose, and 
efficiently and effectively coordinating with one another at 
the State and Federal level. Indeed, as has already been said, 
Governor Bredesen and his team distinguished themselves, and 
yes, indeed, they deserve our praise.
    Much of your focus today will be on devastation and loss in 
the metro-Nashville area. A good part of that is in the Seventh 
District portion of Davidson County. Much is also going to 
focus on Clarksville. As Senator Alexander stated, he and I 
walked those streets and met with those individuals.
    Mr. Chairman, there are 15 counties in the Seventh 
Congressional District. I have been to every one of them to 
make certain that each county and local mayor has what he or 
she needs. Every one of them, every single one of my counties, 
has been declared a Federal disaster area, which is a one-third 
of the 46 counties declared for individual assistance. Now, in 
those 15 counties, as of this week, over 51,000 families have 
registered for individual assistance, and more than $220 
million has been awarded to my constituents.
    Allow me to highlight just Cheatham County, with a 
population of roughly 35,000 people. It ranks second in 
Tennessee, behind Davidson County, to receive maxed-out 
individual assistance from FEMA. To date, Cheatham County has 
reported a loss of approximately $25 million in residential 
damages alone; 182 homes were seriously damaged below 50 
percent, and hundreds upon hundreds more are beyond repair 
entirely. These are huge numbers in a rural area with limited 
resources, and sadly, these numbers are climbing every day.
    We cannot lose sight of the fact that too many roadbeds in 
the rural counties look just like the one in the poster, and 
they're going to continue to look like that for some time.
    We cannot let the proximity of our own homes in the 
metropolitan Nashville or Memphis areas allow us to lose sight 
of the compelling recovery needs in Cheatham, Hickman, Perry, 
and other rural counties. The road back for these communities 
will be a long road, thank you for your attention to the issue 
and I yield back my time.
    Senator Bennett [presiding]. Thank you very much.
    Representative Davis.

STATEMENT OF LINCOLN DAVIS, U.S. REPRESENTATIVE FROM 
            TENNESSEE
    Mr. Davis. Ranking member, thanks very much for the 
opportunity to speak; my good friend, Senator Lamar Alexander, 
for putting together an opportunity for each of us who serve in 
Tennessee, in much there that was affected, to have an 
opportunity to also to come today and express our views and 
also to bring to the attention, I think, of those that--some of 
the damage that was done.
    I live in the upper part of the Cumberland River. It's 
called the Upper Cumberland Plateau, where I was born and lived 
all of my life, basically. I can recall hearing my father and 
my grandfather discuss the huge floods that often came down 
those rivers, down the Wolf River to the Obey, and at the 
Cumberland River down through Nashville. Many times, that was 
the transportation route for the timber that would be cut on 
those hillsides that would often be floated down to the mills 
downstream. But, as I look at the tributaries of the Cumberland 
River, the Dale Hollow Dam that was built, Center Hill Lake in 
Percy Priest, I know that water was held back in those dams to 
prevent unbelievable flooding that could have gone beyond what 
we have observed in the Nashville area, because as I visited 
Dale Hollow Lake just a few days after the floods came, water 
was over some of the roads that I had never observed in my 
life. Even in areas where my three daughters and I would go 
fishing and we would launch a boat to fish, we could not have 
done that; we'd have had to launch off of the road itself.
    So, as I observed the infrastructure that's been put in 
place over the last 60 or 70 years--not much the last 30 years, 
we've almost decided that infrastructure is not very important 
to us anymore, seems here in Washington--but as we have made--
as we made the investments in infrastructure, I saw what I 
believe prevented a much, much more devastating flood 
downstream. And then, as I look at the Cumberland River, the 
Cordell Hull, the Old Hickory, the Cheatham and Barkley Lakes, 
and then realize that Wolf Creek Dam, on the edge of Kentucky, 
almost to Tennessee, if that were to collapse, the unbelievable 
devastation that would occur downstream.
    So, as we look at some failures of those, perhaps within 
different departments--and it appears that the Corps of 
Engineers are one of those who we're looking at--as we look at 
those, the question I have for them is, If these lakes were not 
built, how much more devastating would it have been? And if you 
had, in fact, had the perfect button to push each time that you 
saw the water rising over that 24-hour period, how much less 
flood would we have had if you had done it perfectly?
    So the question I want answered as we go through this 
process today is that--how helpful were those lakes, how 
helpful was our forefathers' investment in infrastructure that 
prevented us from having a much more devastating occurrence? 
How important was that investment?
    And then as we talk about the places that were harmed, I 
went through Cheatham and through Hickman County, small 
counties with small streams. Virtually every one of those 
little valleys had been occupied 150 to 200 years ago by 
families who knew how high the water was going to rise. Some 
say 17 inches in Nashville, some in the area that I represent 
say probably as much as 20-some inches. Those homes were washed 
away.
    Lewis County, Williamson County, where I represent, and--
with Congresswoman Blackburn--and Murray County and Lawrence--
many of those counties received unbelievable floods, where 
there were no lakes to hold back the water. And when you go 
there, you don't see a failure of Corps of Engineers, you see 
God's hand at work.
    As so, as we engage in these conversations, we need to be 
careful, as we look to pointing fingers, and be sure that 
whatever we do here, or whatever actions that we take, whoever 
we look at, that we make sure that we, collectively, together, 
as our emergency people did, as the first responders did, as 
the local sheriffs and police departments, as local radio 
stations continue to blurt out so and so and point to areas 
where the telephone service may not have been working, but at 
least point out areas where there was a dire need.
    I have small radio stations with 3,000 watts or less. 
They're the ones who inform when there's a disaster such as 
this. Our TV stations in Nashville certainly did a great job. 
So, I applaud all of them.
    But as we move through this process, we need to look at 
everything that happened so we can prevent, or at least control 
as much as we can, the devastation that could occur again.
    Again, I thank you for allowing me to be here. And I 
definitely look forward to the hearing and to see the results 
when we have them.
    Senator Alexander, thank you.
    Senator Bennett. Thank you very much, sir.
    Representative Cohen.

STATEMENT OF STEVE COHEN, U.S. REPRESENTATIVE FROM 
            TENNESSEE
    Mr. Cohen. Thank you, Ranking Member Bennett, Senator 
Alexander and the members of the subcommittee.
    First, I want to thank Senator Alexander for getting this 
program together. It's important that the Chairman, Mr. Dorgan, 
responded and had this hearing, which is so important.
    I want to thank Senator Corker, who rightfully said that 
our delegation works together well, and we do, and also thank 
him for his brevity. It's something unusual in Washington.
    I also want to thank Congressman Cooper for his insightful 
analysis of the Corps of Engineers. I was not aware of page 29; 
sounded like something from the manual that the folks that did 
the Deepwater Horizon had written about their plan to recover--
some fiction in there--so it was interesting to hear about 
that.
    The people of Tennessee, I think, did a grand job in 
responding. And it was a marvelous response. When I went up to 
Millington--my district covers--was--had certain floods in 
midtown north Memphis, in Frayser, but most of it was north of 
me, in Millington, in Shelby County, and it was devastating. 
The mayor, who's here, and the Millington civic forces, police 
and fire, did a great job. They were on the scene. And the 
citizens got together. There were churches that set up 
shelters, and it was truly the ``Volunteer State'' at its best.
    I was impressed with what happened, and then President 
Obama declared it a disaster area promptly, with the urging of 
the delegation, working with the Governor, and sent several 
Cabinet members there immediately to observe and to try to help 
throughout the State. So, I thought the Government responded in 
a marvelous way. And I was quite pleased and proud. I was 
disappointed in what happened.
    I would suggest for one thought, though--and I wish 
Chairman Dorgan was here. He said that we had little warning. 
And indeed, in certain ways, we did have little warning, but in 
other ways, we had a major warning, in a macro way. And that 
major warning came from Al Gore in his ``Inconvenient Truth'' 
book. It may be an inconvenient truth, and some people still 
don't believe there is climate change and global warming. But, 
I would submit that the book suggests--and, I think, in a very 
persuasive manner--that while one condition or one extreme 
doesn't necessarily prove or disprove climate change, that 
there will be great climate change, and includes rains and 
floods that result there from, because of what we have done to 
our Earth. And we need to heed that warning or we will continue 
to have these types of floods. And we can have better warning 
systems, and we can have better responses, but we'll continue 
to have more disastrous climatic changes if we don't get a grip 
on carbon emissions and pass a comprehensive bill that deals 
with this issue.
    It's devastating what can happen. And I think this is part 
of it. I think it was a 1,000-year flood, but I think there's a 
reason for it.
    We call these sometimes ``acts of God.'' I don't know why 
we would attribute such a thing to God. It did give Noah his 15 
minutes. But, I don't know that they're necessarily acts of 
God. They're sometimes acts of God, and this one with a little 
help from man, for not being as attuned to Mother Earth as we 
should be. And I would urge us all to look in the macro aspects 
of this and to think about what we can do to try to help our 
climate and Earth in years to come.
    I thank Senator Alexander.
    And, on a personal note, Senator Bennett, in our unusual 
political climate that we have, you, unfortunately, got a 
Purple Heart. I've heard nothing but wonderful things about 
you. And I thank you for your service to our country and regret 
that you got that Purple Heart.
    I yield back the remainder of my time.
    Senator Bennett. Thank you very much, and I shall not 
comment on the personal comment, but I am grateful for your 
concern.
    We appreciate your being here and we appreciate the 
solidarity of the Tennessee delegation--Republican and Democrat 
alike. And we will do our best at the hearing to get as deeply 
as we can into the problems that you've raised here.
    Thank you so much for coming over here.
    Senator Alexander. Mr. Chairman, may I mention that 
Congressman Tanner and Congressman Gordon had other hearings 
today, but they have offered a statement, which I would ask to 
make a part of the record.
    Senator Bennett. Without objection, it shall be part of the 
record.
    We now go to the first panel, which Chairman Dorgan has 
already introduced.
    Gentlemen, we appreciate your being here. You've heard the 
testimony and comments of the members of the delegation, and we 
look forward to your response. Your prepared statements, if you 
have them, that exceed the time limit that we've laid down, 
will, of course, become part of the record and be available as 
part of the record to anyone who wants to examine them in 
detail. So, General Peabody, we will start with you, sir.

STATEMENT OF MAJOR GENERAL JOHN PEABODY, COMMANDER, 
            GREAT LAKES AND OHIO RIVER DIVISION, CORPS 
            OF ENGINEERS--CIVIL, DEPARTMENT OF THE 
            ARMY, DEPARTMENT OF DEFENSE--CIVIL
    General Peabody. Good morning, Mr. Chairman, members of the 
subcommittee. I'm General John Peabody. I command the Great 
Lakes and Ohio River Division of the Corps of Engineers.
    I appreciate the opportunity to testify about the Corps' 
response to the Cumberland River Basin flood event. The Corps' 
intent related to this flood has consistently been to 
objectively determine the facts, transparently communicate our 
findings, and work to improve our operations and processes for 
the future.
    I want to emphasize three things up front. First, this rain 
event was unprecedented, far surpassing the forecast and the 
previous experiences of all Corps of Engineers professionals 
involved in dealing with it. Second, Nashville district 
professionals responded competently, adaptively, and in some 
cases heroically, to this extraordinary event. Third, this 
event exposed some inadequacies in our system of flood 
response, for which I am responsible. We will correct these 
issues.
    The weather forecast on April 28 predicted a significant 
rainfall event for the upcoming weekend. In response, the Corps 
took proactive measures to model and evaluate potential 
Cumberland Basin system impacts, reduce pool levels, and alert 
Corps emergency managers. However, the ensuing weather event 
resulted in total rainfall nearly three times the maximum 
predicted, and well beyond what we had modeled.
    Within the Cumberland River Basin, approximately 56 percent 
of the watershed is located upstream of a Corps flood risk 
management project. The remaining 44 percent is what we call 
``uncontrolled drainage,'' where the Corps cannot influence 
water flows. Unfortunately, the heaviest rainfall occurred in 
the southwest area of Nashville and drainage areas uncontrolled 
by flood risk management projects.
    Eight of the 10 dams the Corps operates in the Cumberland 
Basin came into play during this event. Wolf Creek, Dale 
Hollow, Center Hill, and J. Percy Priest are authorized, 
designed, and operated primarily for flood risk management and 
had the greatest impact on reducing the flood crest in the 
river. Unfortunately, the Corps was not able to use the full 
storage capacity of three of these projects--Wolf Creek, Dale 
Hollow, and Center Hill--because the storm's heaviest rainfall 
fell far to the southwest of them.
    On May 3, the flood storage capacity at J. Percy Priest was 
exceeded, requiring operation of the spillway gates to avoid 
overtopping the dam, and causing a catastrophic failure of the 
project.
    Three other projects--Cordell Hull, Old Hickory and 
Cheatham--are authorized, designed, and operated primarily for 
navigation and hydropower. These projects were not designed to 
provide flood storage capacity, and therefore, any discussion 
of Old Hickory storing or holding backwater, in the context of 
a storm like this, simply does not make sense.
    The Cheatham navigation project was overtopped and went to 
uncontrolled flow on Saturday evening. Spillway gate operations 
were required at both Cordell Hull and Old Hickory, just as 
they were at J. Percy Priest, in order to prevent overtopping 
and loss of these projects.
    Nashville district professionals responded proactively and 
adaptively to this rapidly evolving weather event. Many left 
their homes to be flooded while they worked to reduce flooding 
along the system. They managed water flow to within inches of 
overtopping the three Corps projects I mentioned, which is an 
extraordinarily dangerous situation, and provided sandbags, 
which prevented the loss of the Omohundro Water Treatment 
Plant.
    Preliminary analysis indicates that Corps of Engineers 
efforts reduced the Cumberland River flood crest in Nashville 
by approximately 5 feet, an order of magnitude that would have 
left Nashville without clean water, and almost certainly would 
have overtopped the Metro Center levee.
    The Corps was in communication and coordination with the 
National Weather Service and State and local emergency 
management officials before, during, and after this event. 
However, our previous standard coordination procedures--with 
the National Weather Service, in particular--proved to be 
inadequate to the scale and intensity of this flood. Even 
though we increased the frequency of interagency calls on 
Saturday, a number of other issues contributed to fog and 
friction between our agencies, including the use of technical 
terms not commonly understood, unstated or unclear information 
requirements, the loss of the Corps' Internet, and a lack of 
redundant communication capabilities. These and other factors 
contributed to the lack of our ability to gain a clear, common 
operational picture over the weekend.
    The Corps has already been implementing some flood 
management improvements prior to this event. This flood will 
cause us to refine and accelerate some of those measures, and 
to add others. Yesterday, as I discussed earlier, the Corps 
posted a comprehensive, but still draft, after-action review, 
which we have conducted, in consultation with our State and 
Federal partner agencies.
    We look forward to comments received from the public and 
others in response to this report over the next 30 days. We 
will consider that input prior to finalizing our report, which 
we expect to do in the next 2 months.


                           PREPARED STATEMENT


    Given the nature of this unprecedented weather event, 
flooding was unavoidable. A more aggressive interagency effort 
is needed to alert the public about the risks of flooding, as 
well as where and how to receive information, warnings, and 
predictions during an event.
    Mr. Chairman, I thank you for this opportunity to testify, 
and I look forward to answering your questions.
    [The statement follows:]

            Prepared Statement of Major General John Peabody

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, I am Major General 
John Peabody, Commander of the Great Lakes and Ohio River Division, 
U.S. Army Corps of Engineers. Thank you for the opportunity to testify 
about the Corps' response to the Cumberland River Basin flood event 
that occurred in May 2010. The Corps' intent has consistently been to 
objectively and dispassionately review the facts behind this event, 
transparently communicate our findings to the public, and work to 
improve our operations and processes for the future. One of the primary 
missions of the U.S. Army Corps of Engineers is to support flood risk 
management activities of communities in both urban and rural areas 
throughout the United States. To carry out this mission, the Corps 
operates projects that reduce flood risk and conducts emergency 
management activities. The Corps' priority during flooding is to 
protect human life and property. We perform this mission as part of an 
interagency team with our Federal, State, and municipal agency 
partners. The Corps is also responsible for providing timely, accurate 
flow release information from our flood risk management projects to the 
National Weather Service so that it can be used to make flood 
predictions and public notification.

                             WHAT HAPPENED

    The weather forecast on April 28, 2010 predicted a significant 
rainfall event for the weekend of May 1-2, 2010. At that time, the 
Corps ran models that predicted the flood risk management projects in 
the Cumberland basin would minimize any flooding within their drainage 
areas. In order to increase confidence in our capacity to store 
stormwater runoff, the Corps proactively lowered pool levels at Cordell 
Hull and Old Hickory by one-half foot and Cheatham Lake by 1 foot. The 
massive rain event over the next few days resulted in total rainfall 
nearly three times the maximum amount originally predicted and well 
beyond what we had modeled.
    The historic and heavy rainfall was concentrated in the Nashville-
Franklin area, with Nashville receiving more than 13 inches of rainfall 
in 36 hours, more than doubling the previous 2-day rainfall record. 
Some areas exceeded 17 inches of rain--the highest amount in over 140 
years of record and estimated to be well above a 1,000-year rainfall 
event. The first round of storms on May 1 caused sharp rises in nearly 
all streams and rivers. The second round of storm activity on May 2 
fell on already saturated ground and rapidly flowed into creeks and 
rivers already at flood stage, thereby causing large-scale severe 
flooding along the Cumberland and lower Tennessee Rivers and their 
tributaries.
    Nashville District personnel responded proactively and in some 
cases heroically to this extremely dangerous weather event. Some 
personnel left their homes to be flooded while they worked to reduce 
flooding along the entire system. They managed water flow to within 
inches of overtopping three Corps projects--an extraordinarily 
dangerous situation, rapidly provided sandbags to prevent the loss of 
the Omohundro water treatment plant, and preliminary analysis indicates 
that operations of the Corps projects reduced the Cumberland River 
flood crest in Nashville by approximately 5 feet.
    The Corps is responsible for 10 multi-purpose projects in the 
Cumberland River Basin. Two of these projects, Martins Fork and Laurel, 
are located on small tributaries upstream of Wolf Creek Dam and only 
provide flood risk management benefits locally. The remaining eight 
projects consist of four flood risk management projects, three 
navigation projects, and one hybrid project that provides both flood 
risk management and navigation benefits. Wolf Creek, Dale Hollow, 
Center Hill, and J. Percy Priest are congressionally authorized, 
designed and primarily operated for flood risk management and 
hydropower. Wolf Creek is on the Cumberland River whereas Dale Hollow, 
Center Hill and J. Percy Priest are on tributaries. The Corps flood 
risk management projects do not capture all of the drainage within the 
basin. The multi-purpose project at Barkley provides valuable flood 
risk management benefits for the lower Ohio and Mississippi Rivers. 
Basin wide, approximately 56 percent of the watershed is located 
upstream of a Corps flood control project. The remaining 44 percent is 
referred to as uncontrolled drainage. Cordell Hull, Old Hickory, and 
Cheatham are congressionally authorized, designed and primarily 
operated for navigation and hydropower. These projects cannot store 
large volumes of water and do not make a meaningful contribution to 
flood risk management. Their local drainage areas are uncontrolled. 
Barkley supports navigation and provides flood risk management benefits 
for the lower Ohio and Mississippi Rivers.
    Wolf Creek, Dale Hollow, Center Hill, and J. Percy Priest are the 
projects designed and operated for flood risk management that were able 
to have the greatest impact on reducing the flood crest. Unfortunately, 
the heaviest rainfall occurred in other drainage areas uncontrolled by 
flood risk management projects, where the Corps could not influence 
water flows. The Corps was not able to use the full storage capacity of 
Wolf Creek, Dale Hollow, and Center Hill because the storm's heaviest 
rainfall fell to the southwest of these projects. The reservoir at J. 
Percy Priest, located just upstream of Nashville, was completely filled 
during this event. On May 3, the flood storage capacity at J. Percy 
Priest was exceeded requiring operation of the spillway gates to avoid 
overtopping the dam and risking a catastrophic failure of the project.
    Cordell Hull, Old Hickory, and Cheatham are designed and primarily 
operated for navigation. These projects were not designed to provide 
flood storage capacity. The Cheatham navigation project was overtopped 
and went to uncontrolled flow at 7 p.m. on May 1. Spillway gate 
operations were required at Cordell Hull and Old Hickory to prevent 
overtopping and losing control of water releases.
    The Corps was in communication with and coordinated with the 
National Weather Service and State and local Emergency Management 
officials before, during and after this event.

                          AFTER ACTION REVIEW

    The Corps recently conducted a comprehensive, internal after action 
review, in consultation with our partner agencies, including the NWS, 
USGS, TEMA, and TVA. The report highlights 28 issues categorized in 
three key areas: water management, emergency management, and 
communications.

                            WATER MANAGEMENT

    The weather forecast alerted the Corps to the upcoming rainfall 
event, allowing our water management professionals to evaluate 
potential system impacts. As a result of this evaluation the Corps took 
proactive measures to reduce pool levels and to alert Corps emergency 
managers.
    An unprecedented amount of rainfall fell during this event, and was 
met by necessary actions on the part of all agencies involved to 
protect life and property. The Corps continues to work progressively 
with the National Weather Service to improve joint operating models, 
implement new reservoir inflow forecasts, and capitalize on a long 
standing history of working together cooperatively, consistent with 
newer initiatives such as the Integrated Water Resources Science and 
Services (IWRSS). Project operations are guided by water control 
manuals which do not currently address our most extreme weather events. 
The enormous magnitude of this event has caused us to reconsider our 
worst case weather scenarios. The Corps will evaluate project operation 
plans for their capability to respond to such events. Specific to this 
flood event, the Corps is developing a post flood report designed to 
gain a comprehensive technical understanding of the engineering aspects 
of this flood.

                          EMERGENCY MANAGEMENT

    The importance of communications and pre-event coordination with 
the Tennessee Emergency Management Agency cannot be overstated for this 
or any natural disaster event. Under Corps Authority, Public Law 84-99, 
pre-event staging of basic flood fight equipment such as sandbags, 
early identification of professional Corps personnel to provide 
technical assistance, coordination between the Corps and the Tennessee 
Emergency Management Agency (TEMA), and the well-timed deployment of a 
Nashville District Liaison to the State Emergency Operation Center, all 
combined to directly result in the efficient and effective response to 
all TEMA requests for flood fight assistance throughout the duration of 
this historic event.

                             COMMUNICATIONS

    The Corps increased the frequency of interagency coordination calls 
to enable timely, disciplined, and documented contact during a rapidly 
changing event. Redundant communications systems between responding 
offices, projects and agencies are vital to an effective response. 
However, on Sunday, flood waters caused a loss of Internet service at 
the Nashville District headquarters necessitating telephonic 
communications, slowing information exchange. A lack of common 
understanding of operations and terminology between the Corps and the 
National Weather Service impeded our collective ability to coordinate 
some issues during this dynamic situation. As a result, we are 
continuing to work closely with our agency partners to improve our 
interagency processes and conduct periodic exercises so we are better 
prepared to act in a synchronized interagency manner. Given the nature 
of this unprecedented weather event, flooding was unavoidable. A more 
aggressive interagency effort is needed to educate the public about the 
risks of flooding as well as where and how to receive information, 
warnings, and predictions during an event. These are important lessons 
which the Corps will address, and in fact we are already moving forward 
to take corrective action.

                               CONCLUSION

    Mr. Chairman, this concludes my remarks. Thank you again for 
allowing me to testify today. I look forward to answering any questions 
you or other members of the subcommittee may have.

    Senator Bennett. Thank you very much, sir.
    Mr. Carter.

STATEMENT OF GARY M. CARTER, DIRECTOR, HYDROLOGIC 
            DEVELOPMENT, NATIONAL WEATHER SERVICE, 
            NATIONAL OCEANIC AND ATMOSPHERIC 
            ADMINISTRATION, DEPARTMENT OF COMMERCE
    Mr. Carter. Thank you, Ranking Member Bennett, Senator 
Alexander, for this opportunity to testify about the 
devastating floods which occurred near Nashville, Tennessee, on 
May 1 through 3 of this year.
    I'm Gary Carter, Director of the Office of Hydrologic 
Development in NOAA's National Weather Service. First, I would 
be remiss if I did not recognize the dedicated staff at the 
Nashville Weather Forecast Office and the Ohio River Forecast 
Center for their performance during this extreme event. 
However, tragically, 26 people lost their lives, and our best 
wasn't good enough.
    I will briefly describe the weather conditions that 
produced the heavy rain and then explain the services we 
provided.
    As we have heard, an unprecedented amount of rain and 
flooding incurred in Tennessee from May 1 through 3. A 
stationary front interacted with very moist air from the Gulf 
of Mexico, setting the stage for record amount of rainfall, up 
to 18 to 20 inches in as little as 36 hours. The weather 
pattern produced nearly twice the amount of rainfall over 36 
hours, as documented by 140 years of records at Nashville 
International Airport, and can be considered a 1-in-1,000-year 
event.
    As a result, record flooding occurred along the Cumberland 
River, which flows through metropolitan Nashville. At 6 p.m. on 
May 3, the river rose to almost 52 feet. Flood stage at that 
location is 40 feet, and major flood stage is 45 feet. Since 
the construction of upstream dams, the record flood at 
Nashville was about 48 feet in 1975. The last time the 
Cumberland River at Nashville exceeded its 40-foot flood stage 
was 26 years ago.
    Hydrologic forecasts provided by the National Weather 
Service are a coordinated effort between national scientific 
centers, regional forecast centers, and local forecast offices. 
The river forecast centers work with partner agencies, such as 
the Army Corps, that control the dams and reservoirs to account 
for projected dam releases into the river. NWS rainfall 
forecast and river-level forecast represent the current state 
of the science.
    As early as Tuesday, April 27, NWS forecasters highlighted 
the threat of heavy rain for the upcoming weekend. Heavy rains 
began falling on Saturday, May 1. The NWS issued stream flow 
forecasts for major flooding at numerous locations along the 
Ohio and Cumberland Rivers. On Sunday morning, May 2, after 
coordinating with the Army Corps personnel, we updated the 
river level forecast and issued a flood warning for the 
Cumberland River at Nashville. On Sunday evening, we revised 
the river-level forecast and warnings to reflect the latest 
information. Forecasts called for a river level of 51.5 feet, 
which was issued 14 hours before the river crested.
    We learned several important lessons from this event. And 
although the devastating flooding at Nashville could not have 
been prevented, the Federal partners understand it is necessary 
to improve our communications during these dangerous and life-
threatening situations.
    NWS forecasters predicted record rainfall amounts, however 
the flood forecast for the Cumberland River at Nashville was 
raised several times during the event. As a result, emergency 
managers, city officials, and the public were unable to 
comprehend how bad the flooding was going to be until it was 
well underway. In particular, the devastating levels and extent 
of the flood inundation was not conveyed in the clearest and 
most effective manner.
    Recognizing the need for improved coordination and 
communication, we have already taken action with our partners. 
The early stages of improved collaboration are in place for the 
Cumberland River at Wolf Creek and the Caney Fork River at 
Center Hill in Tennessee. National Weather Service, Army Corps, 
and the U.S. Geological Survey have conducted preliminary 
reviews and met several times to develop better lines of 
information flow. And a standing tri-agency team has been 
expanded to ensure the primary actions from these reviews are 
implemented during the next year. The NWS is conducting an 
assessment of our services, and we expect the report to be 
available in the early fall.
    Looking to the future, NOAA is leading an interagency 
consortium called the Integrated Water Resources Science and 
Services, or IWRSS. The goal of IWRSS is to fuse advanced 
science and service delivery, produce improved river forecasts, 
establish inundation flood mapping, and deliver new summit-to-
sea water-resource forecast services. This more robust and 
seamless system will provide the common operating picture 
required to limit the death and destruction caused by major 
floods.
    In closing, I'd like to emphasize once again that this was 
an unprecedented event that pushed the limits of our science 
and technology, and stressed everyone to the max.

                           PREPARED STATEMENT

    We will continue working with our partners in the Army 
Corps, the USGS, to improve communication and deliver better 
flood forecasting services to emergency managers, 
decisionmakers, and the public.
    Thank you and I will be pleased to answer any questions you 
may have.
    [The statement follows:]

                  Prepared Statement of Gary M. Carter

    Thank you, Mr. Chairman and members of the subcommittee, for this 
opportunity to testify about the devastating flood that occurred in the 
Nashville, Tennessee area on May 1-3, 2010. I am Gary Carter, Director 
of Hydrologic Development in the National Weather Service (NWS). The 
National Weather Service is a line office of the National Oceanic and 
Atmospheric Administration (NOAA), within the Department of Commerce 
(DOC).
    I will provide a brief overview of the event and describe the 
actions we have already put in place to enhance communications during 
similar situations in the future. I will also discuss our plans to lead 
and leverage an interagency Federal partnership to deliver more useful 
information to enable emergency managers and local officials to save 
lives and protect property during high impact flood events.

                           WEATHER CONDITIONS

    A record-breaking rain and flood event occurred in the middle of 
Tennessee from May 1-3, 2010. Across the Cumberland and Tennessee 
Valleys, 26 people lost their lives, 11 of which were in the Nashville 
area. Damage estimates associated with this event are near $2 billion. 
A very slow moving frontal boundary interacted with a very moist, warm 
airmass moving north from the Gulf of Mexico, which resulted in 
repeated heavy rainfall over central and western Kentucky and much of 
the western half of Tennessee. Widespread thunderstorms produced 
torrential rain and severe weather throughout the region on Saturday. 
After a break in precipitation Saturday night, another series of storms 
produced torrential rain over nearly the same area on Sunday. Record 
breaking rainfall occurred in Tennessee on Saturday May 1 and Sunday 
May 2. Rainfall amounts across western and middle Tennessee totaled 10-
15 inches, with areas to the south and west of greater Nashville, along 
the Interstate 40 corridor, reaching 18-20 inches (Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As measured at Nashville International Airport, Saturday May 1 was 
the third wettest 24-hour period on record for that area. More notably, 
the next day, Sunday, proved to be the city's rainiest day since 
records began in 1871. The resulting 2-day total of 13.57 inches nearly 
doubled the previous 2-day rainfall record of 6.88 inches. Most of this 
record breaking rainfall occurred in only a 36-hour period. The 
likelihood of a 48-hour storm of this magnitude occurring in this 
region is less than 0.1 percent in any given year. This was a very rare 
event.
    This record-breaking precipitation resulted in catastrophic 
flooding. Flash flooding in middle Tennessee including the Nashville 
area occurred Saturday, while unprecedented flooding along the 
Cumberland River, which flows through metropolitan Nashville, occurred 
on Sunday May 2 and Monday May 3. The Cumberland River at Nashville 
rose to a flood stage of 51.86 feet at 6 p.m. May 3. The flood stage 
(the stream stage at which a flowing body of water threatens lives, 
property, or commerce) of the Cumberland River at that location is 40 
feet, and the major flood stage (the stream stage at which extensive 
inundation of structures and roads is expected and significant 
evacuations of people and/or transfer of property to higher elevations 
are necessary) is 45 feet. The flood of record for the regulated system 
at Nashville was 47.64 feet in 1975. The Cumberland River at Nashville 
last exceeded its 40-foot flood stage 26 years ago when it hit 45.3 
feet on May 9, 1984, also exceeding its major flood stage.

                           NOAA NWS SERVICES

    Hydrologic forecasts provided by the NWS are a coordinated effort 
between national scientific centers, regional river forecast centers, 
and local weather forecast offices. The national Hydrometeorological 
Prediction Center provides forecasts of rainfall amounts out to 5 days 
into the future. This information is used by each of the 13 regional 
River Forecast Centers. Generally, River Forecast Center areas of 
responsibility are delineated along natural river drainages. Each river 
center runs regionally tailored models to provide river and stream 
forecasts. As part of the forecast process, River Forecast Centers work 
with partner agencies that control dams and reservoirs to incorporate 
projected dam releases into the river forecasts. NWS rainfall forecasts 
and river level forecasts represent the current state of the science.
    A number of NWS offices were involved in providing services for 
this event. Specifically for the Cumberland River and Nashville 
Metropolitan area, river and streamflow forecasts were provided by the 
Ohio River Forecast Center (OHRFC). The OHRFC is responsible for a 
large area that includes fast, moderate, and slow responding rivers 
with over 100 dams and reservoirs managed in different ways by the U.S. 
Army Corps of Engineers (USACE) as well as State and local 
organizations. The Nashville Weather Forecast Office (WFO) provided 
flood related watches and warnings in addition to severe and hazardous 
weather information associated with the event.
    The weather pattern favorable for producing locally heavy rainfall 
in the Cumberland and Tennessee Valleys was recognized early on by NWS 
forecasters. As early as Tuesday, April 27, forecasters highlighted the 
threat of heavy rain for the upcoming weekend in their Hazardous 
Weather Outlook. On April 29, a Flood Potential Outlook was issued 
emphasizing the likelihood of heavy rain for the weekend. Additionally, 
OHRFC identified the possibility of streams and rivers exceeding flood 
stages. A Flash Flood Watch for the Nashville area was issued on the 
afternoon of April 30. Meanwhile, other WFOs issued Flash Flood Watches 
for adjacent portions of Tennessee and Kentucky.
    Heavy rainfall began on Saturday May 1. In the morning, the 
Nashville WFO issued an Areal Flood Advisory, which included Greater 
Nashville, then upgraded the Advisory to an Areal Flood Warning that 
afternoon covering a large area of middle Tennessee. The NWS provided 
streamflow forecasts indicating major flooding for locations in the 
Ohio River Valley and the Cumberland Valley. NWS updated the river 
level forecasts and issued a Flood Warning for the Cumberland River at 
Nashville at 9:50 a.m. Sunday May 2. Over the next 2 days, NWS and 
USACE worked closely to continue to provide updated forecasts during 
this unprecedented event. Through repeated coordination between NWS and 
USACE, NWS continued to update the river forecasts and warnings using 
the latest release information from USACE dams.
    At 4 p.m. Sunday May 2, NWS revised river level forecasts and 
warnings based on the latest observed rainfall and to reflect the 
latest release information from Old Hickory Dam. Forecasts called for a 
crest of 48 feet for the Cumberland River at Nashville--8 feet above 
flood stage and 3 feet above major flood stage. Following a subsequent 
discussion between NWS and USACE that same evening, and based on the 
latest information provided by USACE, the river level forecast was 
raised to 50.3 feet. Later Sunday night, forecasters monitoring the 
river levels noticed that it was higher than anticipated. After further 
coordination with the USACE and confirming a higher release rate from 
the dam, the forecast river level was raised to 51.5 feet. The 
Cumberland River crested at 51.86 feet at 6 p.m. Monday May 3 (Figure 
2). The NWS forecast of 51.5 feet was issued 14 hours before the river 
crested.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        COMMUNICATION CHALLENGES

    Although the devastating flooding of Nashville could not have been 
prevented, the Federal partners understand it is necessary to improve 
our communications during these dangerous and life threatening events. 
If the USACE had not controlled the water releases from their projects, 
the resulting devastation would have been much worse. Although NWS 
forecasts and warnings were issued and updated throughout the event; 
the forecast for the Cumberland River at Nashville was raised several 
times during the event. As a result, emergency managers, city 
officials, and the public were unable to comprehend the potential 
severity of the event until it was well underway. In particular, the 
devastating levels and extent of the flood inundation was not conveyed 
in a clear and effective manner.
    Recognizing the need for improved coordination and communication, 
the NWS, the USACE, and the U.S. Geological Survey (USGS) have 
conducted preliminary reviews and have met several times to develop 
improved lines of information flow. As one example, a Tri-Agency Fusion 
team which was created in 2008 to address Upper Mississippi River 
flooding has been expanded in response to this event. The Fusion team 
will ensure the primary actions from these assessments are implemented 
during the next year.
    While the NWS has a vigorous outreach and education program 
spearheaded by the local Warning Coordination Meteorologist, clearly 
more can be done to ensure the public is informed about flood and 
weather impacts, and to ensure the NWS communicates flood impacts in a 
clear and effective manner. Flood inundation maps are required for 
emergency managers and local officials to assess risk and make 
appropriate decisions. NWS is working to expand the development of 
model-based GIS inundation map products in the United States, which 
would greatly enhance the ability of emergency responders by allowing a 
graphical depiction of the potential extent of the flood.
    Another idea for improvement is for the USACE and NWS to work 
together to take advantage of tools currently in use or under 
development at NWS to prepare project inflow forecasts based on the 
latest predicted rainfall amounts. The hydrology modeling will be 
performed by NWS and provided to the USACE for evaluation. The early 
stages of such collaboration are currently in place, with NWS providing 
a daily update of inflows to Cumberland River at the Wolf Creek Dam in 
Russell County, Kentucky, and the Caney Fork River at the Center Hill 
Dam in DeKalb County, Tennessee.

        NATIONAL INTEGRATED WATER RESOURCES SCIENCE AND SERVICES

    Many regions of our Nation are experiencing critical problems 
associated with too much, too little, and poor quality water. These 
challenges, combined with increased demand, aging water infrastructure 
and the uncertainties of future climate, pose what is now considered to 
be one of the greatest threats to our society in the 21st century. 
Water resource issues profoundly affect our Nation's economy, policies, 
and regulatory frameworks. To address the growing water challenges and 
guide critical decisions, NOAA is leading an interagency consortium 
called Integrated Water Resources Science and Services (IWRSS) to 
develop and deliver the new and improved information needed by 
stakeholders and decisionmakers. The USGS and USACE are core partners 
in this endeavor. Since no single agency has all of the capabilities 
and resources needed to tackle these complex issues, IWRSS provides the 
paradigm needed to facilitate working together in new ways based on the 
following three pillars outlined below.
    The technical pillar of IWRSS is a common operating framework, 
enabled by making our key systems interoperable, synchronizing data 
exchange, and implementing spatial visualization tools. These same 
technical advances will enable one-stop shopping by State and local 
water managers for Federal water information, which is a critical need 
nationwide.
    The second pillar involves the identification and implementation of 
advanced water science and technology. Across NOAA, other Federal 
agencies, and academia, there is a wealth of relevant scientific 
research to support water resources information needs; what is missing 
is an integrative framework to move these science advances into 
operational production. The IWRSS strategy calls for the formation of a 
national water support center to perform the necessary integration of 
research and technology, and to serve as a proving ground to test new 
capabilities before delivery to regional and national operations.
    The third pillar involves the human dimension; the IWRSS strategy 
identifies the social science and stakeholder interactions necessary to 
provide the information and tools to make a difference in water 
resources decisionmaking.
    The goal of IWRSS is to integrate services and service delivery 
through more effective communications, improved river and flood 
forecasts and mapping, and new ``summit-to-sea'' water resources 
forecast information. Such an integrated system, will foster better 
communication and provide the common operating picture required to 
mitigate the death and destruction caused by major floods.

                               CONCLUSION

    The flooding catastrophe in Nashville resulted from the alignment 
of many unfortunate circumstances. The enormity of unprecedented 2-day 
rainfall amounts, changing river levels, and lack of public awareness 
of the potential impacts of the forecast river levels (due in large 
part to the fact that city residents have not experienced a significant 
flood in over 25 years), were all contributing factors. NOAA will 
continue working with our partners in USACE and USGS to improve our 
coordination and communication of potential flooding situations and to 
deliver enhanced flood services. In particular, an IWRSS team will be 
formed to identify long-term options for developing and delivering 
forecasted flood area inundation maps. Another team will be formed to 
optimize system interoperability and data synchronization among NWS, 
USACE, and USGS.
    I thank the subcommittee for the opportunity to speak about this 
challenge and will answer any questions you may have.

    Senator Bennett. Thank you very much, sir.
    Mr. Bassham.

STATEMENT OF JAMES H. BASSHAM, DIRECTOR, TENNESSEE 
            EMERGENCY MANAGEMENT AGENCY
    Mr. Bassham. Mr. Chairman, Senator Alexander, I appreciate 
this opportunity to appear before the subcommittee.
    Governor Phil Bredesen asked that I convey his personal 
thanks to you for your interest in the State of Tennessee's 
perspective of this historic flooding event during May.
    I'd like to brief you on the sequence of events that took 
place in Tennessee, and the resulting response and recovery 
efforts. And I will tell you that the recovery efforts really 
are just now starting in Tennessee. That's going to be a long, 
long grind for us.
    In the evening of April 30 through May 2, more than 22 
inches of rain fell in the western and the middle portion of 
Tennessee. More than one-half of the State had reports of 
flooding damage and about a dozen tornados, and the storm 
touched down in many locations. Twenty-four citizens were 
killed statewide, primarily by rushing water from flash 
flooding and by rising water.
    The Tennessee Emergency Management Agency--TEMA--is a 
division of the military department. The agency has a mission 
to coordinate emergency management response and recovery, to 
reduce loss of life and property in the State of Tennessee. 
TEMA is empowered by State law and by the Governor's executive 
authority to perform its mission of protecting the public 
during emergencies and during disasters.
    TEMA is organized into two branches: response and 
preparedness. The preparedness branch handles the planning, 
training, exercise, mitigation, and various grants and program 
offices, as well as the recovery process, which is ongoing now. 
The response branch has a responsibility for both TEMA's 
operations sections, including the State's 24-hour warning 
point, the agency's communication networks, which is statewide, 
and the regional offices with TEMA's area coordinators. The 
area coordinators are the field response personnel that work 
closely with their assigned counties. County emergency 
management agencies are responsible, under the county mayor's 
legal authority, for controlling the response to the 
emergencies in their jurisdiction. And we're pleased to have 
two of the county mayors with us today.
    TEMA's operations watch-point element is the focal point 
for receiving warnings, making notifications to local 
government and the counties, and arranging for initial response 
actions, 24 hours a day, 7 days a week. With the limited 
manpower inside TEMA, the importance of the State's Emergency 
Service Coordinators, known as ESCs, cannot be understated. 
There are more than 120 primary or alternate ESCs representing 
all State agencies and departments. These critical leadership 
positions report to the State Emergency Operations Center 
during an emergency, and are empowered by State law with the 
full authority of their commissioners.
    During an emergency, TEMA and the ESCs manage the State's 
many resources and coordinate response using those assets to 
support local incident commanders at the local government 
level.
    The following departments have assigned to TEMA full-time 
embedded ESCs for enhanced coordination, planning, and response 
purposes. The National Guard, the Department of Safety, the 
Department of Transportation, and the Department of Human 
Service have embedded ESCs in our organization.
    In addition to the ESCs, TEMA relies on individual liaisons 
from outside partners to provide support. These liaisons 
include nongovernmental organizations, such as the American Red 
Cross and the Tennessee Volunteer Agencies Active in Disasters, 
known as VOAD; the private-sector partners, such as FedEx and 
Walmart; telecommunications providers, such as AT&T and 
Verizon; and various Federal agencies, such as FEMA, the Civil 
Air Patrol, and the U.S. Army Corps of Engineers.
    As a result of the May flooding, as many as 10,000 
individuals were displaced and more than 1,500 homes were 
destroyed in Tennessee. Around the State, 102 bridges, 239 
roads, and 19 water treatment plants were impacted or damaged.
    Governor Bredesen has been very pleased with the Federal 
response to the flooding. Within 24 hours of the floods, 
several administration officials, including Secretary 
Napolitano, had called to ensure that we were receiving the 
needed assistance, and Administrator Fugate has made several 
trips to Tennessee.
    Since then, more than 65,000 individuals have registered 
for FEMA assistance. To date, more than $269 million for FEMA 
assistance has been provided to individuals in Tennessee. As a 
result of the storms and flooding, 49 counties received 
presidential disaster declarations for some kind of Federal 
assistance.

                           PREPARED STATEMENT

    Regardless of how these numbers rank, this was a tremendous 
event for Tennessee. In spite of the fact that 24 lives were 
lost, the death toll for this flooding event was remarkably 
low, due primarily to the great response from local emergency 
responders, the police, the fire departments, the rescue squads 
that came from across the State that we were able to move in 
from the east to the west and the--just the volunteer citizens 
that went out and took care of each other.
    My time is up, and I will be glad to answer questions, and 
I appreciate very much the opportunity, Senator Alexander, to 
be here with this group today.
    Thank you.
    [The statement follows:]

                 Prepared Statement of James H. Bassham

    Mr. Chairman and Distinguished Senators: I appreciate the 
opportunity to appear before the subcommittee. Governor Phil Bredesen 
has asked that I convey his personal thanks for your interest in the 
State of Tennessee's perspective of the Presidential Declared Disaster 
resulting from historic flooding during May of this year.
    I would like to brief you on the sequence of events that took place 
in Tennessee and the resulting response and recovery efforts, which are 
still on-going.
    In the evenings of April 30 through May 2, more than 22-inches of 
rain fell in the western portion of Tennessee. More than one-half of 
the State had reports of flooding damage and about a dozen tornadoes in 
the storm touched down in many locations. Twenty-four citizens were 
killed statewide, primarily by rushing water from flash flooding. Fed 
by massive rainfall and run-off from creeks and streams, our large 
rivers in the affected regions attained record crests.
    At this time, I'd like to explain the nature of the State's 
response role during emergencies of this or any nature.
    The Tennessee Emergency Management Agency (TEMA) is a division of 
the State's Military Department. The agency has the mission to 
coordinate emergency management response and recovery to reduce loss of 
life and property in the State of Tennessee. TEMA is empowered by State 
law and by the Governor's executive authority to perform its mission of 
protecting the public during emergencies and disasters. During a state 
of emergency, TEMA performs as an extension of the Governor's staff to 
ensure that the orders of the Governor are implemented and enforced.
    TEMA is divided into two branches: Response and Preparedness. The 
Preparedness branch handles the planning, training, exercise, 
mitigation and various grants and programs offices, as well as the 
recovery process.
    The Response branch has responsibility for both TEMA's Operations 
Section, including the State's 24-hour warning point, the agency's 
Communications networks and the regional offices with TEMA's area 
coordinators, who are the field response personnel that work closely 
with their assigned counties. Each area coordinator is responsible for 
coordinating directly with approximately 6 of the State's total of 95 
counties. County emergency management agencies are responsible under 
the county mayor's legal authority for controlling the response to 
emergencies in their jurisdiction.
    TEMA's operations watch-point element is the focal point for 
receiving warnings, making notifications to local governments in the 
counties, and arranging for initial response actions 24 hours a day, 7 
days a week. There are two or more operations officers on duty at all 
times.
    At the time of the May Flooding, TEMA had only 88 positions 
statewide, which includes all field personnel, administrative and 
headquarters staff.
    With the limited manpower inside TEMA, the importance of the 
State's Emergency Service Coordinator (ESC) program cannot be 
understated. There are more than 120 primary or alternate ESCs 
representing all State agencies and departments. These crucial 
leadership positions report to the State Emergency Operations Center 
during an emergency and are empowered by State law with the full 
authority of their Commissioner. During an emergency, TEMA and the ESCs 
manage the State's many resources and coordinate responses using those 
assets to support incident commanders at the local government level.
    These State ESCs attend regular monthly training meetings with TEMA 
and participate in full-scale exercises. The following departments have 
assigned to TEMA full-time embedded ESCs for enhanced coordination, 
planning and response purposes: Military (National Guard), Safety 
(Highway Patrol), Transportation and Human Services.
    In addition to the ESCs, TEMA relies on individual liaisons from 
outside partners to provide critical information as well as links back 
to their own agencies. These liaisons include: non-governmental 
organizations American Red Cross and the Tennessee Volunteer Agencies 
Active in Disaster; private sector partners FedEx and Walmart; 
telecommunications providers AT&T and Verizon; and various Federal 
agencies, such as FEMA, Civil Air Patrol and the U.S. Army Corps of 
Engineers.
    As a result of the May flooding, as many as 10,000 individuals were 
displaced and more than 1,500 homes were destroyed in Tennessee. Around 
the State, 102 bridges, 239 roads, and 19 water treatment plans were 
impacted or damaged.
    Governor Bredesen has been very pleased with the Federal response 
to the flooding. Within 24 hours of the floods, several administration 
officials, including Secretary Napolitano, had called to ensure we were 
receiving the needed assistance and Administrator Fugate has made 
several visits to Tennessee.
    Since then, more than 65,000 individuals have registered for FEMA 
assistance. To date, more than $269 million in FEMA assistance has been 
provided to individuals in Tennessee. As a result of the storms and 
flooding, 49 counties received Presidential Disaster Declarations for 
some kind of Federal assistance.
    Regardless of how these numbers eventually rank it amongst other 
U.S. disasters, the May flooding was a tremendous event for 
Tennesseans. It is easily the largest disaster in recent memory with an 
unprecedented impact to infrastructure and the number of impacted 
citizens. The total cost to the public for this disaster may not be 
known accurately for some time, but I suspect the figure for combined 
Public and Individual Assistance programs will also be a mark unequaled 
in our State's previous experience.
    In spite of the fact that 24 lives were lost, the death toll for 
this flooding event was remarkably low. I'd like to attribute that 
success to two factors.
    First, the proactive nature of the communications of warnings made 
by TEMA, local authorities and our partners at the National Weather 
Service to make clear to the public the threat flash flooding and 
flooding posed to their safety. The other is the dedication of our 
local and State first responders, and spirit of our many local 
volunteers, who saved more than 850 lives by performing rescue 
operations at great peril to their own lives during the flooding.
    On Thursday, April 29, prior to the emergency, TEMA and the 
National Weather Service engaged in our usual coordination for 
potentially severe weather by participating in joint teleconferences 
with forecasters and State and the local emergency managers in West and 
Middle Tennessee. TEMA had already placed the SEOC in an elevated 
posture for monitoring the situation, but notices also were made to key 
personnel to be aware that a potential existed for an emergency 
situation to develop.
    TEMA sent the first of 171 warnings to the counties at 12 noon on 
Friday, as the storm struck in Memphis. During the next week, TEMA's 
Operations Center answered more than 4,000 calls with just 6 operations 
officers.
    Overall, the SEOC handled 843 mission tasks relating to the 
flooding response. Those missions included receiving and distributing 
2.5 million gallons of potable water to impacted communities, 
coordinating 3,000 State response personnel from 25 State departments 
and agencies, and 1,000 mutual aid responders from unaffected 
jurisdictions. In the State, more than 20,000 local jurisdiction 
personnel responded to the disaster, as well as the volunteers I 
mentioned earlier.
    TEMA Operations also managed 17 new missions, 77 other incidents 
and 130 weather warnings that were in addition to the flooding events 
simultaneously underway.
    The results achieved can be attributed to the fine men and women in 
TEMA and the contributions of many others inside government and within 
our communities.
    This concludes my prepared remarks. I'd like to again thank the 
Senators for this opportunity to participate in this hearing.

    Senator Bennett. Thank you very much, sir.
    General Peabody and Mr. Carter, you were here, and we heard 
what Congressman Cooper had to say. I'd like to give you both 
the opportunity to respond to that, talking about the 
coordination, or lack thereof, or other kinds of problems, to 
give us your perspective on the issues that he raised.
    You can go in any order you want.
    General Peabody. Thank you, Senator.
    I think several of the Congressman's criticisms are well-
placed. I think the general conclusion that we need to improve, 
and the statement that we were not prepared for this event, is 
accurate. And that's exactly the point. This event was so 
extraordinary that all the procedures that we had in the past, 
which had proved adequate, going back as far as we can 
remember, both personally and institutionally, were simply 
overwhelmed.
    Part of the problem, from the Corps' perspective, is that 
we rely on the Quantitative Precipitation Forecast, so-called 
QPF, which on April 28 indicated to us that we were going to 
have a significant storm event. The modeling that we did, both 
that day and in subsequent days leading up to the flood itself, 
indicated that there would be minor, and maybe moderate, 
flooding on some tributaries and some uncontrolled areas, but 
that, in the basin itself, where we have flood damage reduction 
projects, that we would be able to manage the flow of water 
coming down, and we would be okay.
    In this event, we know now, of course, that the forecast 
was off, which is rare. Actually, our normal experience is that 
the forecast usually over predicts the rainfall amount that we 
expect to get.
    So, the procedures that we had in place, which were 
deliberate, daily, and perhaps twice-daily phone calls, were 
simply overwhelmed very quickly on Saturday, and the 
complicating factor on Sunday, when we lost our Internet 
capability, really made it extremely difficult. That added a 
tremendous amount of friction for our people. So, instead of 
being able to pass data automatically, and pull it off of Web 
sites, we were basically reduced to going back to the phone 
lines, which is functional, but a lot slower, especially when 
things are changing rapidly and we are changing our flow 
releases out of our dams quite frequently.
    Senator Bennett. Mr. Carter, do you have any further 
comment to make?

                    NEED FOR IMPROVED COMMUNICATIONS

    Mr. Carter. I would agree with General Peabody that the 
assessment that communication needs to be improved is 
absolutely accurate. Our QPF forecast from our weather models 
have improved over the years. We, in this case, did recognize 
the potential for extremely heavy rain over the weekend early 
in the week. Those forecasts were continually updated to the 
extent that, during Saturday, we produced forecasts in several 
places over Tennessee where flooding occurred of 8 to 12 
inches, which were exceeding all previous records, and the most 
ever in a non-tropical storm situation.
    There's work to do with these weather models in getting 
better data and science and capabilities, but the effort to 
improve those is ongoing, and they will continue to improve.
    There are many other issues here of the coordination 
activities. I'd just like to stress the fact that a lot of the 
things you've heard here is because we were relying on people 
to call or share information on the Web. We really need to move 
this to a whole new level, do a dramatic improvement, using 
modern communication, IT technology, to produce interoperable 
data and systems, where, when we update a precipitation 
forecast, every one of our partners and the public see it 
instantly. When the USGS, which has the stream-gauge network 
that we rely on critically--and they're our primary partners, 
in terms of observed stream flow data--when they get a new 
report, we see it instantly, the Army Corps sees it instantly, 
the public officials and emergency managers have access to that 
data and information. And likewise, when the Corps changes its 
releases into the rivers, we are provided that automatically 
into our river forecast center. We can process the data and 
make the changes through our river forecast modeling system to 
produce better, more accurate forecasts.
    Thank you.
    Senator Bennett. Thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you, Senator Bennett.
    I want to thank the General and Mr. Carter and Mr. Bassham. 
Self-examination isn't always easy. Members of Congress know 
that we're not perfect, but it's very helpful to all of us to 
hear you say ``These are the things we did well, and, in some 
cases, heroically, and these are the things that didn't work 
and that we should do better.'' And I appreciate your 
willingness to examine that weekend that way. And even though 
it reveals some defects, that's the point of the hearing, so we 
can do better the next time.
    Now it seems to me, all this boils down--sort of two areas. 
One, was there anything that the Corps could have done better 
in managing this water flood, taking into account that nobody 
had ever seen anything like it before in our area? And second, 
could we have a better, and timelier, forecast communicated to 
everybody who needed to hear it, in a clearer way? It seems to 
me that that's where the two areas are.
    So, General, you mentioned that that it didn't make sense 
to focus on Old Hickory Dam, but, in page 72 of your report, 
you go into some detail about Old Hickory lock and dam and 
spillway discharges and you point out that, had the pool 
climbed 6 inches higher--that's the lake, I guess--that if the 
lake had been 6 inches higher, it would have overtopped the 
stream lock wall, resulting in flooding of the powerhouse, 
requiring complete evacuation of the dam. It's been estimated 
such an event would have resulted in a flood crest 4 feet 
higher in Nashville than was actually experienced. So, what 
happens at Old Hickory isn't irrelevant to downtown Nashville's 
level of flooding.
    What would have happened--and these are questions--I told 
the people of Tennessee to send me some questions, or I asked 
them to, and many did. Paula Rice, of Goodlettsville, Kenneth 
Buckmaster, of Hartsville, basically asked this question, what 
would have happened if the lake level in Old Hickory had been a 
foot lower--or 2 feet lower or 3 feet lower--on Friday? Would 
you have been able to hold more water, and would the water in 
downtown Nashville have been less?
    General Peabody. The short answer is, it would have held 
more water, but it would have been almost unnoticeable. 
Remember Old Hickory is not built to store water; it's built 
for navigation. Given its nature and the topography where it's 
built, it does have some storage capacity, but it is minimal. 
It accounts for about 3 percent of the overall storage capacity 
of all the dams that we operate in the Cumberland River system, 
3 percent. So, we can get some storage capacity out of it. But, 
given the nature of this event, it filled up very rapidly. And 
once it fills up, as I discussed--we have three dams that were 
in danger of overtopping--we have to pass that water. The 
consequences of not passing the water would be even worse than 
passing it.
    Senator Alexander. Right. But, you wouldn't have that 
consequence in Old Hickory Dam if you'd had less water in it--
in the lake.
    General Peabody. It would have probably, if we had--we did 
lower it--as I recall, it was either one-half a foot or a 
foot--I can't remember the precise amount--before the event, as 
a precautionary measure, even though our models told us that 
the forecast would not cause flooding. But, we felt this was a 
prudent thing to do.
    If we had lowered it, another foot or two, that would have 
added a small amount of storage. I can't tell you off the top 
of my head what that percentage would be, but it is probably a 
decimal point of 1 percent. And it would have slightly delayed, 
and may have reduced, the crest in the river, but it probably 
would have only been a few inches. And, Senator, I'll take that 
for the record and get back with the----
    Senator Alexander. Thank you.
    General Peabody [continuing]. Specifics----
    Senator Alexander. Thank you.
    General Peabody [continuing]. On those calculations for 
you.
    [The information follows:]

    The Corps simulated the flood under the scenario if Old Hickory had 
been at 442.5 feet (two feet below where it actually was). The 
simulation showed that the impact on the crest at Nashville, TN would 
have been 0.25 feet (3 inches).

    Senator Alexander. Let me ask you one more question about 
dams before I go to the forecast question. Wolf Creek and 
Center Hill Dams----
    General Peabody. Yes.
    Senator Alexander [continuing]. Have been unsafe. And we 
added money to the budget, which you used to make them safer, 
making them able to hold more water. If either of those dams 
had failed, and you'd had just to release the water during this 
event, what would the consequences have been in downtown 
Nashville?
    General Peabody. I can't even imagine it. As you can see 
from the diagram there, the circle in the upper right-hand 
corner represents Wolf Creek. You can see that the red 
represents how much storage capacity was used at that project; 
the blue represents storage capacity remaining. We raised Wolf 
Creek over 20 feet--21 feet I believe--as this weather event 
came down. And for a period of about 24 hours, we reduced the 
flow out of Wolf Creek to almost zero, about 200 cubic feet per 
second, which is next to nothing.
    I want to assure the committee, and the people of Tennessee 
and Kentucky and Nashville, that even though these are unsafe 
dams, we are able to temporarily store large quantities of 
water behind these dams, so long as we bring the water down 
fairly quickly after a flood event.
    Now, what we do, Senator, and what we did in this case when 
we have to store additional water behind these dams, is we have 
our project people go out on the dams, they intensify the 
measurements that they take, they examine all the instruments 
that we have on the dams to ensure they're safe. And in both 
Center Hill and Wolf Creek, we had no indications whatsoever of 
any movement or any issues of concern related to the dam during 
the period that it was surcharged.
    Senator Alexander. Senator Bennett, I wonder if I could ask 
a couple of more questions relating to the forecast, and then 
we'll get on, very shortly, to the next panel, because I know 
everyone has schedules to keep.
    It seems to me that one of the obvious conclusions is that 
if somehow we could have a better Sunday morning forecast; 
things would have been a lot better. I mean, from what I hear 
in the testimony and read in the after-action report, by Sunday 
night the Weather Service was able to let people know that 
there was a lot of water coming, a lot more water than anybody 
expected. But, if we had known it Sunday morning, that would 
have made a big difference.
    Now, there are several things, in terms of letting people 
know that the water is coming, that I'd like to ask you, 
starting with Mr. Carter, to comment on. Mr. Bassham, you may 
have something to say about this, as well.
    First, we have to have accurate information about it. And 
you've talked about models. Second, there has to be better 
internal communication between the Weather Service and the 
Corps. And you've talked about how that can be improved and 
about how some of the equipment was not--the Internet went 
down, as one example. But, a third, is translating that 
information to the mayors, the emergency service workers, the 
people of the area, so they can understand, in plain English, 
what's about to happen to them; and, in all three of those 
areas, make it part of the forecast.
    And let me take an example that I think everybody 
understands. One of the emergency service workers in 
Millington--or, in Memphis, said to me, you know, ``Ten years 
ago--well, the improvement that the broadcasters and the 
Weather Service have made on letting us know about tornados in 
the last 10 years has been a 1,000 percent.'' And I thought 
about that, and I realized that I can turn on my television, if 
a tornado is anywhere in Tennessee, and I can find out, almost 
instantly, that it's coming down my street and that it'll hit 
my house in 15\1/2\ minutes, which is apparently an 
extraordinary cooperation between Federal agencies and the 
broadcasters to do that.
    Now, I know that flooding is a different phenomenon. But, 
flooding is three out of four of the natural disaster--of the 
disasters--federally--disasters we have in this country. What 
can we do, Mr. Carter, what steps can we take to make the kind 
of information we provide to the public about floods more like 
what we tell them about tornados? Would it take more equipment, 
different models, better cooperation, and a new alliance with 
broadcasters? What would it take to do that, and how can we, in 
the Congress, help create that environment?

                      IMPROVING FLOOD FORECASTING

    Mr. Carter. Senator Alexander, thank you for asking that 
question, and thank you for recognizing the tremendous 
improvement in the tornado forecasts.
    I believe that that improvement is even a wider partnership 
than you mention. There was a whole research group, better 
data, science and tools with the academic and other Federal 
agencies' research that went into understanding tornados and 
getting the techniques and tools into our weather offices. And 
it has paid off big time. Now, part of that is because it was 
made a national imperative. People were dying every year. 
Communities were being wiped out, with no warning, from severe 
thunderstorms and tornados. We heard it, we responded, we used 
the best science and technology, and we worked together with 
other partners, and with the media, to make these improvements.
    I believe we need that same kind of imperative with our 
flood forecasting, and I'm so glad you've recognized that, that 
it's complicated, it's complex, it involves better data, better 
models, better capabilities to analyze where the water's going. 
And the other part of it is that we need to show, visually, the 
aerial extent and the depth of the flooding. This a major 
undertaking, to produce the better science and forecasts, and 
then produce the tools and techniques to update and display the 
water levels, and track them from neighborhood to neighborhood 
in these devastating types of floods.
    This is an effort that cannot be accomplished by the 
Weather Service alone. We are responsible for the analysis and 
forecasts, but we need the science, tools, and data, especially 
from our primary flood-fighting partners--the USGS and the Army 
Corps--working with us on projects across agencies to tackle 
the national imperative and do a better job.
    And I would be so grateful if you and your colleagues could 
help reinforce that amongst our agencies. We've been working, 2 
years, to build this consortium and move in these very 
directions. But, it's hard to change Government agencies. The 
status quo is no longer acceptable. We have to work on these 
projects together, not individually and hope that everything 
comes together at the end. We have to work them from the 
beginning, develop the plans, the tools, and then implement the 
improved products and services, in partnership with our 
emergency managers and the first responders. In this way they 
know where the water's going, how deep it's going to be, and 
can take the protective measures to either protect property and 
get people out of harm's way.
    Thank you.
    Senator Alexander. I'll talk with Senator Bennett and 
Senator Dorgan about it, but maybe a subsequent hearing that 
would focus specifically on the Federal agencies' ability to 
develop a system for floods that equals that of--or, comes 
closer to that of what we do with tornados would be a very 
useful thing to do.
    Maybe, Senator Bennett, Mr. Bassham has something to add, 
and then we should go to the next panel.
    Mr. Bassham. Two things and I appreciate the opportunity.
    No. 1, from Friday afternoon, during this event, until 
Monday, our operations center at TEMA issued 171 warnings, to 
local governments, that were provided to us by the National 
Weather Service out of either Memphis or Nashville. That's a 
lot of information to put out. And those warnings go to the 24-
hour warning points in each county government.
    No. 2, as an outcome from the lessons learned, I think, 
from this event, we met last week with the National Weather 
Service office in Nashville, and what they have agreed to do is 
to provide a National Weather Service forecaster, out of their 
office, to the State when we activate for severe weather events 
like this. Ninety-nine percent of the time that would not be a 
requirement, but that 1 percent of the time, this time, it 
would have been helpful, I think. We didn't ask for it, we just 
didn't know to ask for it. But, I think, Senator, that's a 
lessons-learned, and our partnership with the National Weather 
Service is such that we're moving forward with that.
    Thank you.
    Senator Bennett. Thank you very much.
    Oh, yes, sir, General----
    General Peabody. I'm sorry, Senator, I just wanted to add a 
couple of clarifying points that I think are important.
    I want to emphasize that, when I talk about our reliance on 
the Quantitative Precipitation Forecast that is not a criticism 
of the National Weather Service; rather, I think it's a 
criticism of me, of the Corps. So, when we have these 
significant rain events, in hindsight now, looking back, when 
we know that the Weather Service thinks that it might get worse 
than what the forecast tells us, we ought to take more 
aggressive precautionary and prudent measures to get ready for 
this storm. We did not do that in this case. We will do that in 
the future.
    I want to emphasize and support Mr. Carter's point about 
inundation mapping. I want to comment, though, however, that 
that will require a great deal of resources and a lot of 
geospatial mapping to support that kind of ability to post on 
Web sites the predictions of the actual flood impacts that are 
likely to happen. And so, that would cost a lot of money in all 
the areas of the country where we have flood basins.
    Thank you, sir.
    Senator Bennett. Thank you very much.
    Thank you all. We appreciate you being here, and we 
appreciate your service in these difficult times.
    We'll now go to the final panel. And again, they've all 
been introduced by Chairman Dorgan, so I will simply recognize 
them by name.
    All right, gentlemen, thank you again for being here. As 
Chairman Dorgan indicated, we have Mayor Karl Dean, from 
Nashville, and Mayor Richard Hodges, from Millington, then Whit 
Adamson, president of the Tennessee Association of 
Broadcasters, and Bert Mathews, chairman of the board of the 
Nashville Chamber of Commerce. So, you represent a spectrum of 
opinion and experience with this particular challenge.
    And, Mayor Dean, you seem to have been at the core of this 
particular incident, so we look forward to your testimony and 
we'll hear from you first.
    Thank you.

STATEMENT OF HON. KARL F. DEAN, MAYOR, CITY OF 
            NASHVILLE, TENNESSEE
    Mr. Dean. Thank you, Senator Bennett.
    I want to state my appreciation for Senator Alexander for 
giving me the opportunity to be here today and to speak on 
behalf of the citizens of Nashville.
    Before I talk about what our city experienced in early May 
and how we responded, I want to first formally recognize 
Senators Alexander and Corker and Congressman Cooper for their 
leadership, and specifically their assistance in helping 
Nashville secure Federal assistance early on.
    FEMA was on the ground in Nashville even before we were 
officially declared a disaster area, and Nashvillians almost 
immediately began receiving checks. As of this week, over 
22,000 Nashville residents have registered with FEMA and have 
received $77.8 million, collectively, in aid. The Small 
Business Administration has disbursed another $84.7 million in 
loans to Nashville residences and businesses.
    The weekend after the flood, Nashville was visited by three 
of President Obama's Cabinet members: Homeland Security 
Secretary Napolitano, Commerce Secretary Locke, and Secretary 
Donovan, with the Department of Housing and Urban Development. 
I've also had the opportunity to meet with the administrators 
of FEMA and the SBA. All of this is to say that we are 
incredibly appreciative of the Federal support our city has 
received.
    In Nashville, I'm proud to say that our metro departments 
were prepared to respond to the disaster. Over the years, the 
Office of Emergency Management has practiced and trained for 
various scenarios. In fact, just this past fall, a team of 64 
OEM staff and departmental representatives spent 4 days at 
FEMA's Emergency Management Institute in Emmitsburg, Maryland, 
for an exercise that involves severe flooding.
    We also had in place several agreements with outside 
organizations that aided in our response and in our--to the 
disaster and to the recovery. We had a memorandum of 
understanding with Belmont University that allowed us to use 
space on their campus, which is directly across the street from 
our Emergency Operations Center, for communication with the 
media.
    We had an MOU with Hands On Nashville to be the 
coordinating agency for volunteer assistance during and after a 
disaster. Staff from Hands On Nashville were in our Emergency 
Operations Center from day one. And we had an MOU in place with 
the Community Foundation of Middle Tennessee for the creation 
of a disaster relief fund, which allowed us to begin 
immediately collecting donations from the public and 
distributing those to nonprofit agencies that were assisting 
flood victims. Nashville was ready.
    And so, just as we do anytime there's a potential for a 
severe weather event, we partially activated our Emergency 
Operations Center on Saturday afternoon, May 1, in preparation 
for what was predicted to be 5 inches of rain. By that evening, 
it was evident from the number of swift-water rescues from 
flash flooding in the area creeks, a full activation of our 
Emergency Operations Center would be necessary.
    While we continued to focus most of our attention and 
resources on life-saving rescues, we also began to implement 
measures to prevent more individuals from unnecessarily 
encountering dangerous floodwaters. As many local streets and 
portions of Briley Parkway and Interstate 24 became flooded, we 
urged residents to stay off the roadways. We worked with our 
community partners to establish a shelter at Lipscomb 
University for individuals whose homes had been flooded or were 
unable to return to their homes due to the flooding. And we 
activated our community hotline in order to have a nonemergency 
line of communication with the public.
    At that point, the flooding we were experiencing was flash 
flooding from rainfall in the Harpeth River and Mill Creek 
watersheds. That evening was the first time our Office of 
Emergency Management had communication with the Army Corps of 
Engineers. We were informed that the Cumberland River was at 22 
feet and was not at an immediate risk of flooding. That same 
evening, the rainfall predictions we were given by the National 
Weather Service remained at under 7 inches.
    By early Sunday morning, our emergency responders had 
already conducted over 150 water-related rescues. Large numbers 
of Davidson County residents were without power. Our bus 
service was suspended. On Sunday afternoon, we declared a state 
of emergency in Davidson County to allow us to garner 
additional resources, as necessary.
    By Sunday evening, we had confirmed five fatalities thought 
to be flood-related. We ordered the evacuation of MetroCenter, 
an office area, and First Avenue, for precautionary reasons. A 
second shelter was opened. And water conservation measures were 
placed in effect as one of our city's two water treatment 
plants was submerged by the flood.
    From Saturday evening to Sunday afternoon, in less than 24 
hours, the Cumberland River went from 22 feet, well below flood 
stage, to 44 feet, 4 feet above flood stage. We received 7 
additional inches of rain beyond what was forecasted, for a 
total of 13.5 inches of rain in 48 hours, more than double the 
previous record of rainfall for any 2-day period in Nashville 
since they began keeping records.
    On Monday, when the rain stopped, we began to assemble 
damage assessment teams and we setup Disaster Information 
Centers at five community centers throughout the county to get 
information and resources to flood victims who had lost access 
to television and other media.
    While our city began to quickly prepare for the long road 
of recovery ahead, the waters of the Cumberland continued to 
rise. The cause of this is not for me to comment on or to 
speculate on. What I do know is that at no time did the Army 
Corps of Engineers inform us of scheduled water releases from 
dams upstream.
    We received a projection from the National Weather Service 
as to when the river would crest, and at what level. But, when 
we checked the actual river gauge with the Army Corps' 
automated gauge, it was clear the river was rising at a speed 
that far outpaced the Weather Service's projections. We 
communicated this to the Weather Service and later received an 
adjusted crest-level projection. This happened more than once. 
And by Monday afternoon, with the crest level projection at 
52.5 feet, we were extremely concerned about the consequences 
to our city if the projection was wrong again and the river 
rose to 53 feet.
    Once the river crested and the water began to recede, we 
were able to assess the damage left behind. The private sector 
in Davidson County alone sustained over $2 billion in property 
damage. We are still totaling the cost of repairs to our public 
buildings and infrastructure, but it is estimated to be over 
$250 million.
    We lost a total of 10 lives in Davidson County. It's 
important that I point out that all of these were from flash 
flooding of our creeks and tributaries. No one died from the 
flooding of the Cumberland River. Our emergency responders 
rescued a total of 1,400 individuals from the water, including 
some of their own who were put at risk while performing their 
duties.
    What I have taken from this experience, and what I would 
press as the key point I would like to make here today, is 
that, during a disaster, the more accurate information we can 
get, and the sooner we can get it, the better position we are 
in, as a local government and as a city, to respond and make 
decisions.
    I also have to take this moment to highlight the public 
response to this disaster in Nashville, because it was 
representative of the true character of our city.
    In the days immediately following the flood, Hands On 
Nashville's system was overwhelmed with people wanting to 
volunteer. To date, the number of volunteers who have 
participated in disaster relief in our city has exceeded 
17,000.
    We have formed a Flood Recovery Team in the mayor's office 
that continues to work on our long-term recovery efforts, and 
they've already assisted in creating in creating a Hazard 
Mitigation Buyout Program with the water department. And they 
have worked with the Housing Fund, a local nonprofit in 
Nashville that works on affordable housing and neighborhood 
revitalization projects, in creating a local disaster 
assistance program, called We Are Home, that is helping 
individuals fill the gap when funds from FEMA and SBA are not 
enough. The funds for this program are derived from Federal 
grant funding, local businesses and donations made to the 
Community Foundation.
    Again, we are greatly appreciative of the Federal 
assistance we have received. When I speak to any group, even 
those visiting Nashville from somewhere else, I always make the 
point to thank them, as Federal taxpayers, for the assistance 
they gave our city.

                           PREPARED STATEMENT

    Going forward, our city is going to continue to need the 
aid of the Federal Government to fully recover. And I look 
forward to continuing to work with our State's delegation, here 
in Washington, to ensure that Nashville remains a vibrant city 
in the months and years ahead.
    Thank you.
    [The statement follows:]

                Prepared Statement of Hon. Karl F. Dean

    Thank you. I appreciate Senator Alexander for giving me the 
opportunity to be here today to speak on behalf of the citizens of 
Nashville.
    Before I talk about what our city experienced in early May and how 
we responded, I want to first formally recognize Senators Alexander and 
Corker and Congressman Cooper for their leadership, and specifically 
their assistance in helping Nashville secure Federal assistance early 
on.
    FEMA was on the ground in Nashville even before we were officially 
declared a disaster area, and Nashvillians almost immediately began 
receiving checks. As of this week, over 22,000 Nashville residents have 
registered with FEMA and have received $77.8 million collectively in 
aide. The Small Business Administration has dispersed another $84.7 
million in loans to Nashville residents and businesses.
    The weekend after the flood, Nashville was visited by three of 
President Obama's cabinet members: Homeland Security Secretary 
Napolitano, Commerce Secretary Locke, and Secretary Donovan with the 
Department of Housing and Urban Development. I also had the opportunity 
to meet with the Administrators of FEMA and SBA. All of this to say, we 
are incredibly appreciative of the Federal support our city has 
received.
    In Nashville, I am proud to say that our Metro departments were 
fully prepared to respond to this disaster. Over the years, our Office 
of Emergency Management has practiced and trained for various 
scenarios. In fact, just this past fall, a team of 65 OEM staff and 
department representatives spent 4 days at FEMA's Emergency Management 
Institute in Emmetsburg, Maryland for an exercise that involved severe 
flooding.
    We also had in place several agreements with outside organizations 
that aided in our response and recovery efforts. We had a Memorandum of 
Understanding with Belmont University that allowed us to use space on 
their campus, which is directly across the street from our Emergency 
Operations Center, for communication to the media. We had an MOU with 
Hands On Nashville to be the coordinating agency for volunteer 
assistance during and after a disaster. Staff from Hands On Nashville 
were in our Emergency Operations Center from day one. And we had an MOU 
in place with the Community Foundation of Middle Tennessee for the 
creation of a disaster relief fund, which allowed us to begin 
immediately collecting donations from the public and distributing those 
to nonprofit agencies that were assisting flood victims.
    Nashville was ready.
    And so, just as we do anytime there is potential for a severe 
weather event, we partially activated our Emergency Operations Center 
on Saturday afternoon, May 1 in preparation for what was predicted to 
be a 5 inch rainfall and flash flooding. By that evening, it was 
evident from the number of swift water rescues from flash flooding in 
area creeks a full activation of our Emergency Operations Center would 
be necessary.
    While we continued to focus most of our attention and resources on 
life-saving rescues, we also began to implement measures to prevent 
more individuals from unnecessarily encountering dangerous flood 
waters. As many local streets and portions of Briley Parkway and 
Interstate 24 became flooded, we urged residents to stay off the 
roadways. We worked with our community partners to establish a shelter 
at Lipscomb University for individuals whose homes had flooded or were 
unable to return to their homes due to the flooding. And we activated 
our community hotline in order to have a non-emergency line of 
communication with the public.
    At that point, the flooding we were experiencing was flash flooding 
from rainfall in the Harpeth River and Mill Creek watersheds. That 
evening was the first time our Office of Emergency Management had 
communication with the Army Corps of Engineers. We were informed that 
the Cumberland River was at 22 feet and was not at immediate risk of 
flooding. That same evening, the rainfall predictions we were given by 
the National Weather Service remained under 7 inches.
    By early Sunday morning, our emergency responders had already 
conducted over 150 water-related rescues. Large numbers of Davidson 
County residents were without power. MTA bus service was suspended. On 
Sunday afternoon, we declared a State of Emergency in Davidson County 
to allow us to garner additional resources as necessary.
    By Sunday evening, we had confirmed five fatalities thought to be 
flood related. We ordered evacuations of MetroCenter and First Avenue 
for precautionary reasons. A second shelter was opened. And water 
conservation measures were placed in effect as one of our city's two 
water treatment plants was submerged by the flood.
    From Saturday evening to Sunday afternoon--in less than 24 hours--
the Cumberland River went from 22 feet (well below flood stage) to 44 
feet (4 feet above flood stage). We received 7 additional inches of 
rain beyond what was forecasted, for a total of 13.5 inches of rainfall 
in 48 hours--more than double the previous record of rainfall for any 
2-day period in Nashville since they began keeping history records of 
weather.
    On Monday, when the rain stopped, we began to assemble damage 
assessment teams. And we setup Disaster Information Centers at five 
community centers throughout the county to get information and 
resources to flood victims who had lost access to television and other 
media.
    While our city began to quickly prepare for the long road of 
recovery ahead, the waters of the Cumberland River continued to rise. 
The cause of this is not for me to comment or speculate on. What I do 
know is that at no time did the Army Corps of Engineers inform us of 
scheduled water releases from the dams upstream.
    We received a projection from the National Weather Service as to 
when the river would crest and at what level. But when we checked the 
actual river level with the Army Corps' automated gauge, it was clear 
the river was rising at a speed that far outpaced the Weather Service's 
projection. We communicated this to the Weather Service and later 
received an adjusted crest level projection. This happened more than 
once. And by Monday afternoon, with the crest level projection at 52.5 
feet, we were extremely concerned about the consequences to our city if 
the projection was wrong again and the river rose above 53 feet. We 
decided to communicate this directly to the Army Corps of Engineers. 
Through a phone call, we clearly stated that we didn't need anymore 
water in Nashville, and asked them to do whatever they could to aid in 
preventing further flooding of the Cumberland River.
    Once the river crested and the water began to recede, we were able 
to assess the damage left behind. The private sector in Davidson County 
alone sustained over $2 billion in property damage. We are still 
totaling the cost of repairs to our public buildings and 
infrastructure, but it is estimated to be over $250 million. We lost a 
total of 10 lives in Davidson County. It's important that I point out 
that all of those were from flash flooding of our creeks and 
tributaries--no one died from flooding of the Cumberland River. Our 
emergency responders rescued a total of 1,400 individuals from the 
water, including some of their own who were put at risk while 
performing their duties.
    What I have taken away from this experience, and what I would press 
as the key point I would like to make here today, is that during a 
disaster, the more accurate information we can get and the sooner we 
can get it, the better position we are in as a local government and as 
a city to respond and make decisions.
    I also have to take this moment to highlight that the public 
response to this disaster in Nashville was representative of the true 
character of our city. In the days immediately following the flood, 
Hands On Nashville's system was overwhelmed with people wanting to 
volunteer. To date, the number of volunteers who have participated in 
disaster relief in our city has exceeded 17,000.
    We have formed a Flood Recovery Team in the Mayor's Office that 
continues to work on our long-term recovery efforts full time. Already, 
they have assisted in creating a Hazard Mitigation Buyout Program with 
the Metro Water department. And they have worked with The Housing Fund, 
a local nonprofit in Nashville that works on affordable housing and 
neighborhood revitalization projects, in creating a local disaster 
assistance program called ``We Are Home'' that is helping individuals 
fill the gap when funds from FEMA and SBA are not enough. The funds for 
this program are derived from Federal grant funding, local businesses 
and donations made to the Community Foundation.
    Again, we are greatly appreciative of the Federal support and 
assistance our city has received to date. When I speak to any group, 
even those visiting Nashville from somewhere else, I always make the 
point to thank them as Federal taxpayers for the assistance our city 
has received.
    Going forward, our city is going to continue to need the aid of the 
Federal Government to fully recover. And I look forward to continuing 
to work with our State's delegation here in Washington to ensure that 
Nashville remains a vibrant city in the months and years ahead. Thank 
you.

    Senator Bennett. Thank you very much.
    Mayor Hodges.

STATEMENT OF HON. RICHARD L. HODGES, MAYOR, CITY OF 
            MILLINGTON, TENNESSEE
    Mr. Hodges. Senator Bennett----
    Is it on? Yes, it's on now.
    Senator Bennett, Senator Alexander, I'm Richard Hodges, 
from the great city of Millington. With me is Chief Graves, our 
fire chief for the city of Millington. We're honored to be here 
today to discuss the devastating flooding of our city on May 1 
and 2, and how local, State, and Federal agencies, along with 
the Millington community, responded to this disaster.
    I have four parts of my presentation today: preparedness--
preparations made by local, State, and Federal agencies; the 
local response and role of outside agencies; recovery efforts 
by our citizens and government agencies; and conclusion.
    The flooding that struck our area in the early morning 
hours of Saturday, May 1, was unlike any in my lifetime. I have 
been a lifelong resident of Millington and very well remember 
the Christmas Day flood of 1987. Following the 1987 flood, the 
Corps of Engineers constructed a series of levees and various 
flood control measures to mitigate flooding in our city. Since 
that time, we have experienced numerous rains. The flood 
control measures in place performed, as designed.
    This event, though, was much greater in scope, occurred 
quicker than could have been imagined. An estimated 14 to 16 
inches of rain fell in Millington on May 1 and 2, topping 
levees and causing flash flooding throughout the city and the 
Naval Support Activity Mid-South.
    Preparations: Our area is prone to various severe weather 
events that have an impact on our community. As part of our 
emergency preparedness, we receive high-impact weather alerts 
from the Memphis office of National Weather Service.
    On Thursday, April 29, we participated in high-impact 
weather conference's call, facilitated by the National Weather 
Service. They gave predictions of rainfall in excess of 10 
inches in some areas, with widespread tornados.
    On Friday, April 30, the Memphis office of National Weather 
Service held a second conference call. They reiterated that the 
computer models continue to indicate heavy rain and severe 
weather, beginning overnight.
    Response: At approximately 5 a.m. the morning of May 1, the 
Millington Fire Department began to receive 911 calls to rescue 
persons trapped in their homes and cars. We saw early of the 
magnitude of this event. We were proactive by declaring a state 
of emergency in the city, and notified our emergency management 
partners. As the need for resources increased, our fire 
department's assets were quickly overwhelmed. The cooperation 
we received from our counterparts within Shelby County, the 
support of neighboring municipalities, and the NAS Mid-South 
was outstanding.
    Together, we coordinated, conducted over 1,500 rescue 
efforts on May 1 alone. These included rescue evacuations from 
the Federal prison, naval support activity, and hundreds of 
homes. Our rescue efforts continued through late Sunday, May 2, 
and were interrupted several times by severe weather.
    The cooperation among government agencies extended beyond 
the local jurisdictions in our emergency management, both local 
and State. TEMA director, James Bassham, and their west 
Tennessee office were particularly helpful in ensuring we had 
the necessary resources on the ground to respond. In addition, 
tremendous intergovernmental cooperation, I must acknowledge 
the outpouring support from the Millington community. Local 
businesses and private citizens stepped forward offering boats, 
foods, and other assistance.
    Recovery: As we entered into the 48th hour of this event, 
we felt confident that all persons affected had been rescued 
and moved to temporary locations. We began concentrating on 
recovering efforts. Typically, the recovery effort moves to a 
more localized response with support of the local, State, and 
Federal agencies. The recovery effort is a lengthy process 
which can cause additional strain on those affected. It was 
clear that our citizens in our city would need Federal 
assistance to recover from this catastrophe.
    People have come to expect Federal assistance in times of 
disaster, yet the process to obtain declaration can be 
daunting, time-consuming task. I applaud FEMA Administrator 
Craig Fugate and FEMA Regional IV for introducing the concept 
of early declaration. This made resources needed to begin 
recovery efforts quickly available to those in most need. To 
receive a declaration for category A and B for the local 
government and individual assistance to our citizens would 
typically take 2 weeks, but ours came in a matter of days. We 
felt strong support for the Federal Government in our 
community, with visits from FEMA, Administrator Fugate, 
Secretary of the Navy, Ray Mabus, Secretary of Housing and 
Urban Development, Mr. Donavant, and Secretary of Commerce, 
Gary Locke. I especially want to thank the Senators Alexander, 
Corker, and Congressman Cohen, for their visits to Millington 
during this effort.
    While we are enormously grateful for all the Federal 
support, I am most proud of Millington community, how they 
pulled together. Clearly, Federal support is vital. But, the 
real recovery begins at home. Our city employees worked around 
the clock for this--of this disaster. The quick and decisive 
action of Chief Graves saved lives. Everywhere you look in 
Millington, you see people helping people. The faith-based 
communities came forward. NAS Mid-South, through Captain Grant, 
provided shelter for our people. Private citizens organized 
boats, floods, and initiatives to help.
    Conclusion: In conclusion, it is hard to say if this 
disaster could have been averted. There is probably no way to 
fully protect our community from acts of God, yet we are 
currently looking at infrastructure in place. There are always 
lessons to be learned from this situation. I encourage the 
continued appropriations for training first responders. As 
Administrator Fugate knows, fire personnel in our region were 
completing a month-long series of technical rescue training.
    I also would encourage the committee to form a group to 
examine waterways in and around our area. The flooding left 
behind much debris and open channels, and in coming months, we 
can anticipate more flooding or rains. The waterways will once 
again become filled and rain will begin pushing large amount 
downstream. I would also like to encourage FEMA to continue 
moving forward for swift presidential declarations. This 
ensures the rapid help so desperately needed.
    Senators, Millington is a small town, population 10,000 
people. When you think of ``small town USA,'' you're thinking 
of Millington. It's a wonderful place to live. We have been 
thrust into the national spotlight as a result of the largest 
natural disaster ever to affect Millington--the amount of 
rainfall. We prepared the best that we could. We responded in a 
swift and systematic manner, and we are on the road to 
recovery. I understand and accept I am responsible for our 
citizens. When disaster strikes, we are fortunate to have 
support of the government, but recognize the response begins at 
home.
    I hope we have demonstrated in some minute way how 
intergovernmental relations work, when local, State and Federal 
agencies work together for the good of the community.
    Senator Alexander, I want to thank you for your support. I 
appreciate the time and attention of this subcommittee and the 
opportunity to be here with you today. And Chief Graves and I 
will be happy to answer any of your questions at this time.

                           PREPARED STATEMENT

    And I might say that Chief Graves, early that Saturday 
morning, at 4 o'clock in the morning, he had been active with 
Emergency Management, he knew what to do. He knows what kind of 
mayor I am, though, and he came to me, and he said, ``mayor, I 
know what to do, we're working on it, we're going to get it 
done, I need you to do one thing.'' I said, ``What's that?'' He 
said, ``Stay out of the way and let me do my job.''
    And that's exactly what I did.
    Thank you.
    [The statement follows:]

              Prepared Statement of Hon. Richard L. Hodges

    Chairman Dorgan, Ranking Member Bennett, Senator Alexander and 
distinguished Members of the Subcommittee on Energy and Water 
Development, thank you for the opportunity to be with you today. My 
name is Richard Hodges, mayor of the great city of Millington, 
Tennessee. With me is Gary Graves, Fire Chief of the city of 
Millington. We are honored to be before you today to discuss the 
devastating flooding to our city on May 1-2, 2010 and how local, State 
and Federal agencies along with the Millington community responded to 
this disaster.
    My statement today will be summarized to four key points.
  --Preparations made by local, State and Federal agencies in the days 
        before May 1
  --The local response and role of outside agencies
  --Recovery efforts by our citizens and government agencies
  --Conclusion
    The flooding that struck our area in the early morning hours of 
Saturday, May 1, 2010 was unlike any seen in my lifetime. I have been a 
life-long resident of Millington and remember well the Christmas day 
flood of 1987. Following the 1987 flood, the Corps of Engineers 
constructed a series of levees and various flood control measures to 
mitigate flooding in our city. Since that time we have experienced 
numerous torrential rains. The flood control measures in place 
performed as designed. This event was much greater in scope, occurred 
quicker than we could have imagined, and the damage more widespread 
than what we had ever seen before. An estimated 14 inches of rain fell 
in Millington on May 1 and 2 topping the levees and causing flash 
flooding throughout the city of Millington including Naval Support 
Activity Mid-South.

                              PREPARATIONS

    Our area is prone to various severe weather events that have an 
impact on our community. As part of our emergency preparedness we 
receive high-impact weather alerts from the Memphis office of the 
National Weather Service. On Thursday, April 29 we participated in a 
high-impact weather conference call facilitated by the National Weather 
Service. They gave predictions of rainfall in excess of 10 inches in 
some areas with the possibility of widespread tornados. Following this 
conference call, we received an e-mail from the Memphis-Shelby County 
Office of Preparedness alerting all public safety agencies in the area 
of the potential weather event in the next 24-36 hours. On Thursday, we 
issued an e-mail alert to all department directors to begin 
preparations and ensure essential personnel were on alert throughout 
the weekend. On Friday, April 30 the Memphis office of the National 
Weather Service held a second conference call. They reiterated that all 
computer models continued to indicate heavy rain and severe weather 
beginning overnight and moving eastward throughout the day on Saturday.

                                RESPONSE

    At approximately 5 a.m. the morning of May 1, the Millington Fire 
Department began to receive 9-1-1 calls to rescue persons trapped in 
their homes and cars. We saw early on the magnitude of this event. We 
were proactive by declaring a state of emergency in the city and 
notified our emergency management partners. As the need for rescues 
increased, our fire department's assets were quickly overwhelmed. The 
cooperation we received from our counterparts within Shelby County, the 
support from neighboring municipalities and NSA Mid-South was 
outstanding. Together, we coordinated and conducted over 1,500 rescue 
efforts on May 1. These included rescue evacuations from a Federal 
prison, Naval Support Activity Mid-South, and hundreds of homes. Our 
rescue efforts continued through late Sunday, May 2 and were 
interrupted several times by severe weather.
    The cooperation among government agencies extended beyond the local 
jurisdictions to our emergency management partners, both local and 
State. We were in constant contact with the Memphis--Shelby County 
Office of Emergency Preparedness and the west region of the Tennessee 
Emergency Management Agency. TEMA Director, James Bassham and their 
west Tennessee office were particularly helpful in ensuring we had the 
necessary resources on the ground to respond. The local television 
stations provided nearly non-stop coverage of the weather affecting the 
area and allowed us several on-air interviews providing up-to-date 
information for our citizenry. In addition to the tremendous inter-
governmental cooperation I must acknowledge the outpouring of support 
from the Millington community. Local businesses and private citizens 
stepped forward offering boats, food and other assistance to aid in our 
efforts.

                                RECOVERY

    As we entered into the 48th hour of this event, we felt confident 
that all persons affected had been rescued and moved to temporary 
locations. We began concentrating on recovery efforts. Typically, the 
recovery effort moves to a more localized response with support of the 
local, State, and Federal agencies. The recovery effort is a lengthy 
process which can cause additional strain on those affected. It was 
clear that our citizens and our city would need Federal assistance to 
recover from this catastrophic event. People have come to expect 
Federal assistance in times of disaster. Yet the process to obtain a 
declaration can be a daunting, time-consuming task. I applaud FEMA 
Administrator, Craig Fugate and FEMA Region IV for introducing the 
concept of early declaration. This made resources needed to begin 
recovery efforts quickly available to those most in need in our 
community. To receive a declaration for Category A & B for the local 
government and individual assistance for our citizens would typically 
take 2 weeks, but ours came within a matter of days. We felt the strong 
support of the Federal Government in our community with visits from 
FEMA Administrator Craig Fugate, Secretary of the Navy Ray Mabus, 
Secretary of Housing and Urban Development Shaun Donovan and Secretary 
of Commerce Gary Locke. I especially want to thank Senators Alexander, 
Corker and Congressman Cohen for their visits and genuine concern on 
the recovery efforts and needs of the Millington citizens.
    While we are enormously grateful for all of the Federal support, I 
am most proud of how the Millington community pulled together. Clearly, 
the Federal support is vital, but the real recovery begins at home. 
City employees worked around the clock in response to this disaster. 
The quick and decisive action of Chief Graves saved lives. The 
Millington Fire Department conducted over 1,500 rescue missions with no 
loss of life or injury. The Millington Police were outstanding in 
securing the neighborhoods and keeping order. Millington Public Works 
brought hope back to our neighborhoods as they cleared personal 
belongings acquired over lifetime that were heaped in piles of debris 
lining the streets. I have yet to hear a single complaint from the 
employees of the city of Millington. The only thing I hear is, ``What 
can I do to help?'' Everywhere you look in Millington you see people 
helping people. The faith based communities stepped forward to provide 
emergency food, shelter and flood buckets filled with cleaning supplies 
for those in need. The civic organizations provided tremendous amounts 
of food, water and other resources. NSA Mid-South, in the midst of 
their own devastation of massive flooding with over 300 dislocated 
military families, stepped forward under the leadership of Capt. 
Douglas McGowen, to provide shelter for the dislocated civilians of 
Millington. Capt. McGowen said, ``With the great need to shelter those 
displaced by the flooding and the large building we had available, it 
became a priority for us to ensure these Millington residents had a 
roof over their heads.'' Local businesses provided much needed food and 
supplies with an attitude of pay me later and never taking advantage of 
the situation. Private citizens organized benefits and flood recovery 
initiatives to help those affected. Like, Mr. Larry Silvey, a 70 year 
old Millington resident. A retired Navy Master Chief, contractor and 
entrepreneur, Silvey set up a tent at the corner of Arapaho and Bill 
Knight in one of the hardest hit areas in Millington. This tent became 
his headquarters of operations 6 days a week with only Sundays off. 
From this tent, he organized teams of hundreds of volunteers that have 
logged over 8,000 hours to date helping their neighbors tear out and 
rebuild their homes through this disaster. Donating 100 percent of 
their time and talent, these volunteers have rebuilt over 200 homes and 
counting.

                               CONCLUSION

    In conclusion, it is hard to say if this disaster could have been 
averted. There is probably no way to fully protect your community from 
acts of God. Yet we are currently looking at the infrastructure in 
place to identify any areas for improvement. There are always lessons 
to be learned in every situation. I would encourage the continued 
appropriations for training first responders. As Administrator Fugate 
knows, fire personnel in our region were completing a month long series 
of technical rescue training as part of the Urban Area Security 
Initiative (UASI) grant funds. Coincidentally, the last day of the 
swift water rescue class was on May 1. Much of the equipment used in 
our response came as a result of funding under the UASI program and our 
homeland security district.
    I also would encourage this subcommittee to form a group to examine 
the waterways in and around our area. The flooding left behind much 
debris in the open channels. In the coming winter months, we can 
anticipate more flooding rains. The waterways will once again become 
filled with rain and begin pushing large amounts of debris downstream. 
Next Spring has the potential of another catastrophic event if these 
issues are not addressed. I would also like to encourage FEMA to 
continue moving forward for swift presidential declarations. This 
ensures the rapid help so desperately needed in disaster situations 
gets into the hands of those in need.
    Senators, Millington is a small town in west Tennessee with a 
population of barely 10,000 people. When you think of small-town USA, 
you are thinking of Millington, Tennessee. It is a wonderful place to 
live and visit with friends and family, but we don't normally draw 
national attention. We have been thrust into the spotlight as a result 
of the largest natural disaster to ever affect Tennessee. The amount of 
rainfall, albeit historic in proportions, was predicted. We prepared 
the best we could. We responded in a swift and systematic manner and we 
are on the road to recovery. I understand and accept that I am 
responsible to our citizens. When disaster strikes, we are fortunate to 
have the support of the Government, but recognize that response and 
recovery begins at home. I hope we have demonstrated in some minute way 
how inter-governmental relationships work. When local, State and 
Federal agencies work together for the good of the community the 
citizens are better served.
    Senator Alexander, thank you for your support. I appreciate the 
time and attention from this subcommittee and the opportunity to be 
here with you today. Chief Graves and I will be happy to answer any of 
your questions at this time.

    Senator Bennett. Thank you very much.
    Mr. Adamson.

STATEMENT OF WHIT ADAMSON, PRESIDENT, TENNESSEE 
            ASSOCIATION OF BROADCASTERS
    Mr. Adamson. Good morning, Chairman Bennett, Senator 
Alexander.
    My name is Whit Adamson, and since 1987 I've been the 
president and chief executive officer of the Tennessee 
Association of Broadcasters in Nashville. TAB is thankful to 
Senator Alexander for requesting this hearing and his ongoing 
support for improving disaster communications. I look forward 
to sharing with you the valuable, often life-saving public 
service and full power local radio and television stations 
provide during these times of disaster.
    Broadcasters are proven, reliable tools in the face of 
disaster. Even if the electricity is out, causing the Internet 
and cable to go down, or cell coverage is inoperable due to 
congested networks; free over-the-air broadcasters can still be 
on the air, delivering vital information to battery-operated 
receivers.
    In addition to our ongoing comprehensive news coverage of 
emergencies, broadcasters are also the backbone of the 
Emergency Alert System, or the EAS, including AMBER Alerts. 
Nationwide AMBER Alerts have helped safely recover more than 
500 abducted children since broadcasters created this program 
in 1996. In Tennessee, we have one of the best AMBER Alert 
programs in the country, thanks to the Tennessee Bureau of 
Investigation.
    EAS, which is a largely wireless network that connects 
over-the-air radio, television, and cable systems, is used 
during sudden, unpredictable, or unseen events. Participation 
in the EAS is technically voluntarily, yet virtually all radio 
and television stations participate, and do so proudly. EAS 
equipment is purchased by broadcasters at their own expense, 
and stations must test their EAS systems on both a weekly and a 
monthly basis. We've all seen or heard the familiar 
announcement, ``The following is a test of the Emergency Alert 
System. This is only a test.''
    We are proud of the actions of our broadcasters before and 
after the flooding in Tennessee. One of the most critical 
reporting jobs that weekend came from a small radio station, 
WUCZ-FM, in Carthage. Dennis Banka's station is located at the 
mouth of the Caney Fork River, 28 miles below Center Hill Dam 
on the Cumberland River, and 153 miles below the Wolf Creek 
Dam. Due to the known instability of both of these dams, a 
local State representative could get critical information, by 
cell phone, related directly from Lieutenant Colonel Anthony 
Mitchell, to the station and then out to the public. Emergency 
exercises of this type had never been tested before in this 
area.
    Last year, the TAB launched a project with the Office of 
Emergency Management and Mayor Dean's office in Nashville to 
improve local implementation of EAS alerts. Mayor Karl Dean is 
to be commended for his ongoing work in this area. The goal of 
this plan enables authorities to act as the true civil 
authority needed to test our EAS system and to create the 
opportunity for initial--initiate real alerts.
    The ongoing reliability and success of the EAS network 
depends on several important developments:
    First, funding would be helpful to support expanded 
training of local public safety officials in how to use the 
EAS. Currently, there is an unacceptable level in the knowledge 
and expertise of local authorities in how to, and when to, 
employ EAS. These funds could be distributed through FEMA, 
which could also design a training and education program.
    Second, FEMA is in the midst of implementing a next 
generation of EAS which will modernize the technology and the 
computer language used to deliver EAS messages. It will require 
most broadcasters to replace their EAS equipment. The expense 
of such equipment is beyond the means of some broadcast 
stations and local governments. Some entities may even be 
forced to opt out of participating in the EAS, at least for a 
period of time. Federal funding would be critical to aiding 
broadcasters and local governments in fully implementing FEMA's 
plans for a next-generation EAS.
    Third, at little or no cost, cell phone manufacturers could 
include FM radio receivers in phones to give consumers 
important mobile access to radio services, including EAS 
messages. Broadcasters are grateful for the encouragement we 
have received from Congress in favor of expending mobile--
expanding mobile access to radio services. We are also excited 
about our future in mobile DTV, currently being deployed right 
here in Washington and in a number of markets across the 
country. This technology will bring the benefits of over-the-
air television to the mobile generation, including live local 
emergency information.

                           PREPARED STATEMENT

    Finally, in Tennessee, we are continually pursuing the 
modernization of emergency notification systems. Tennessee 
public safety officials, broadcasters, and others are working 
to develop this new system. Tennessee is home to several 
potential terrorist targets, and it is also extremely prone to 
severe weather conditions. Improving our local emergency 
information system could very well save lives. Funding support 
for this endeavor will be critical to completing this task, and 
I am grateful for the opportunity to share my views on 
emergency communications in Tennessee, as well as nationally 
and look forward to working with you.
    Thank you.
    [The statement follows:]

                   Prepared Statement of Whit Adamson

    Good morning Chairman Dorgan, Ranking Member Bennett, Senator 
Alexander, and members of the subcommittee. My name is Whit Adamson. 
Since 1987 I have been the president and chief executive officer of the 
Tennessee Association of Broadcasters in Nashville. Thank you for the 
opportunity to speak with you today about the valuable, often life-
saving services that full power local radio and television stations 
provide during natural disasters and other crises. As discussed in 
detail below, local broadcasters are the most important source for 
vital emergency journalism for all Americans. In addition, local radio 
and television stations serve as the backbone of this Nation's 
Emergency Alert System. I am pleased to share with you today the views 
of Tennessee's broadcasters about how to improve our emergency 
communications system in the digital age.
    To date, much of the discussion related to emergency communications 
has concerned improving interoperability among public safety 
authorities, fire, police, and other emergency operations, namely, the 
ability for these various authorities to communicate among themselves 
during a disaster. While broadcasters certainly support this laudable 
goal, we also believe the time is ripe to expand the conversation to 
include improved emergency public notification. To a significant 
degree, interoperability and public alerting go hand-in-hand, such that 
the success of each depends partly on the success of the other. For 
example, the lessons learned during 9/11 demonstrate that improved 
emergency communications among public safety officials certainly would 
have improved the critical, life-saving information that could have 
been shared with the public. Below, I will focus my remarks on public 
alerting, and our efforts in Tennessee to improve emergency 
notification to the public.

  BROADCASTING IS THE MOST IMPORTANT SOURCE FOR CRITICAL, LIFE-SAVING 
                 EMERGENCY JOURNALISM FOR ALL AMERICANS

    Broadcasters' commitment to public service is never more apparent 
than during times of crisis. During an emergency--particularly one that 
arises with little notice--no other industry can match the ability of 
full power broadcasting to deliver comprehensive, up-to-date warnings 
and information to affected citizens. Local television broadcasters 
reach 99 percent of the approximate 116 million households in the 
United States, while local radio reaches an audience of more than 236 
million, or 93 percent of all Americans, on a weekly basis. The wide 
signal coverage of broadcasters ensures that anyone in a car, at home 
or even walking around with a mobile device can receive up-to-the-
minute alerts when disaster strikes. As a virtually ubiquitous medium, 
broadcasters understand and appreciate their unique role in 
disseminating emergency information. Radio and television broadcasters 
are first informers during an emergency, and Americans know to turn to 
broadcasting first for in-depth coverage when disaster strikes.
    Radio and television stations are also our Nation's most reliable 
network for distributing emergency information. Even if the electricity 
is out, causing the Internet and cable television to go down, and cell 
coverage is lost because networks are clogged or a tower is down, free, 
over-the-air broadcasters can still be on the air. Our dedicated news 
and weather personnel use their familiarity with the people and 
geography of their local communities to provide the most useful, 
informative news to their audiences, whether that includes information 
on where to shelter-in-place, or which streets will serve as evacuation 
routes, or where local businesses may find fuel or generators.
    Broadcasters deliver emergency information with passion. Let me 
give you a recent example of broadcasters' performance during floods in 
Nashville. On Saturday morning May 1, 2010, every news station in 
Nashville preempted regular programming around 7 a.m. in favor of 
continuous, commercial-free weather event content for almost the entire 
weekend. Local radio stations, with only weekend staffing in place, 
provided constant weather alerts from both the National Weather Service 
and joint news cooperation arrangements with local television stations. 
One of the best reporting jobs came from a small FM radio station in 
Carthage, Tennessee, WUCZ. Dennis Banka, who reported from the station 
as a virtual one-man show for an entire weekend during the floods, 
managed to keep his station on the air for almost 48 hours straight for 
the benefit of local listeners in need. This station is located at the 
mouth of the Caney Fork River, 28 miles below the Center Hill Dam on 
the Cumberland River (which is about 50 miles below the Wolf Creek Dam 
northwest of Nashville). Both of these dams exhibited known 
instability, but fortunately Mr. Banka and his station had vital 
contacts with emergency personnel and other authorities and were able 
to report critical information about the situation of both rivers in a 
timely manner.\1\
---------------------------------------------------------------------------
    \1\ The U.S. Army Corps of Engineers oversees both of these dams 
and have recognized the need for repairs. In 2006, the Army Corps 
lowered these lakes and began a massive project to mitigate seepage at 
the dams, which have been leaking for decades. President Obama's fiscal 
year 2011 budget will further those efforts. The budget includes $4.939 
billion in gross discretionary funding for the Civil Works program of 
the Corps of Engineers, of which almost $300 million will flow into the 
Nashville district. $134 million of this will be devoted to ongoing 
seepage repairs at Wolf Creek Dam. The remainder will be divided into 
accounts for investigations and studies, construction, and operation 
and maintenance of Corps projects, including $82.8 million for seepage 
repair at the 61-year-old dam on the Caney Fork River.
---------------------------------------------------------------------------
    Here in Washington, during the blizzards that hit the east coast 
this past winter and essentially closed down the Nation's Capital for a 
week, broadcasters provided up-to-the-minute information that was 
critical to affected residents. For instance, Washington, DC station 
WRC-TV's wall-to-wall coverage and ``potentially life-saving 
newscasts'' were lauded by Maryland Senator Barbara Mikulski, and 
stations WJLA-TV and WUSA also earned praise for their coverage of the 
snowstorms.\2\ Station WTOP-FM alone sacrificed $140,000 in lost 
advertising revenue in order to provide 24-7 coverage, and incurred 
another $50,000 in expenses to cover the blizzards.\3\ Federal 
Communications Commission (FCC) Chairman Genachowski observed that 
``not only were local broadcasters a lifeline for the community, WRC-TV 
used its robust Web site and Twitter feed to help residents who had 
lost power get up-to-the-minute information through their computers and 
phones.'' \4\
---------------------------------------------------------------------------
    \2\ John Eggerton, ``As the Snowy World Turns,'' Broadcasting & 
Cable (Feb. 10, 2010).
    \3\ See ``Washington DC Broadcasters Recap Snow Coverage for FCC,'' 
Radio Business Report/Television Business Report (March 22, 2010). 
WTOP-FM's morning anchor reported that, ``[f]or well over 100,000 
people who lost their power in the storm, WTOP was a lifeline. That's 
not what I say. That's what they told us.''
    \4\ Prepared Remarks of Chairman Julius Genachowski, NAB Show 2010, 
Las Vegas, Nevada, at 2 (April 13, 2010) (Genachowski NAB Remarks).
---------------------------------------------------------------------------
    Similarly, during Hurricane Rita, KLFY, a Lafayette, Louisiana CBS 
affiliate, broadcast continuous live coverage. According to the 
station, all resources were put into action. All reporters, live 
trucks, videographers, directors, producers, studio personnel, and 
engineering were on hand till the ``all clear'' was sounded. Network 
and syndicated programming was preempted for live weather coverage. 
Emergency generators were put on line when power was lost, and special 
arrangements were made with video programming distributors to ensure 
the television station's signal would continue to reach viewers. 
Additional sign language interpreters were hired so the station's 
coverage would reach the hearing impaired. The station provided 
overtime, extra staff and food, and shelter during the emergency.\5\
---------------------------------------------------------------------------
    \5\ The Economic Realities of Local Television News--2010: A Report 
for the National Association of Broadcasters, (April 2010) (NAB 
Report), at 24, attached to Comments of the National Association of 
Broadcasters, Examination of the Future of Media and Information Needs 
of Communities in a Digital Age, GN Docket No. 10-25 (filed May 7, 
2010).
---------------------------------------------------------------------------
    Yet another example of broadcasters' coverage occurred during the 
ice storms in Kentucky last year. When a snow and ice storm left 
hundreds of thousands in the dark in 2009 and caused a statewide 
emergency declaration this past winter, radio stations WBIO-FM, WXCM-
FM, WLME-FM, WKCM-AM and WVJS-AM in Owensboro, KY., and WTJC-AM/FM in 
Tell City, IN., covering a large part of rural Northern Kentucky and 
Southern Indiana, powered on. Throughout the day and night, these 
stations broke from all regular programming to get crucial information 
out to their listeners, many of whom had no power, no heat and no other 
means of obtaining emergency information. Phones at the stations rang 
throughout the crisis. Callers with information on kerosene and 
generators got the word out through radio. The stations stayed on air 
continuously with updates until the crisis passed. ``People will come 
up to me and thank us for being a lifeline, because there was no other 
way to get information,'' said news director Mike Chaney. ``When the 
power is out, you have radio.'' \6\
---------------------------------------------------------------------------
    \6\ In this vein, broadcasters are also developing new avenues for 
distributing their services, particularly emergency communications. In 
particular, the radio industry is working to partner with the cellular 
telephone industry to expand the availability of radio service in 
mobile telephone handsets. We believe that expanding this market holds 
several benefits for the American public. First, unlike cellular 
networks, radio service never clogs or becomes congested, as occurred 
after the terrorist attacks on 9/11 and during Hurricane Katrina. 
Second, there are no technical obstacles to incorporating radio 
reception into a cellular handset. In fact, there are currently over 
800 million handsets in Europe with readily accessible radio service, 
while only a handful of handset models here in the United States 
include this valuable feature. Third, broadcasters believe that FM 
radio reception in mobile handsets is an efficient, economical method 
for delivering emergency alerts and information to the public. 
Incorporating radio reception into cellular handsets would provide the 
American public with one-stop shopping for mobile emergency warnings 
and in-depth news coverage.
---------------------------------------------------------------------------
    Moreover, broadcasters' commitment to their local communities does 
not end when the crisis ends. The effects of a disaster on a community 
are often long-lasting, and when national attention turns away, local 
broadcasters remain to assist their community and listeners. For 
example, when wildfires in Southern California destroyed more than 
1,000 homes and burned hundreds of thousands of acres, KABC-AM in Los 
Angeles immediately responded to the crisis, partnering with sister 
station KLOS-FM and KABC-TV to organize the first media relief 
fundraiser. The ``drive-by'' event was held at three separate locations 
on one day. On-air personalities greeted and interviewed donors at 
their cars during the 14-hour live broadcast. The KABC Web site linked 
to all area Red Cross chapters, and the National American Red Cross set 
up a special link on the KABC Web site so listeners could donate any 
time of day or night. Station staff gave 288 hours to the effort and, 
with individual and corporate donors, raised a remarkable $4.5 million 
for the victims of the fire.
    There are many more examples. Broadcast stations continue to 
provide emergency information and other services even though the 
costs--in overtime for personnel, in meals and hotels, in equipment, 
and of course in advertising lost due to providing wall-to-wall 
coverage--are substantial. For example, one station reports that a 
single season's hurricane coverage cost $160,000 before accounting for 
lost advertising revenue.\7\ Another station reports that it lost 50 
percent of its revenue for an entire month following the events of 
September 11, 2001, because its intensive news programming preempted so 
much of its normal programming.\8\ Emergency journalism clearly 
requires the commitment of substantial resources from the Nation's 
local broadcasters.
---------------------------------------------------------------------------
    \7\ NAB Report at 23.
    \8\ Id. at 24.
---------------------------------------------------------------------------
LOCAL BROADCAST STATIONS REMAIN THE BACKBONE OF THE NATION'S EMERGENCY 
                              ALERT SYSTEM

    In addition to the on-going, comprehensive coverage of emergencies 
that broadcasters provide during emergencies, we are also the backbone 
of the Emergency Alert System (EAS). EAS is a largely wireless network 
that connects over-the-air radio, television and cable television 
systems. The in-place infrastructure of EAS allows the prompt 
dissemination of alerts to the widest possible audience, or to target 
alerts to specific areas, as appropriate. EAS is intended for use 
during sudden, unpredictable or unforeseen events that post an 
immediate threat to public health or safety, the nature of which 
precludes any advance notification or warning.
    In some States, EAS is coordinated by Government authorities. EAS 
can be potentially accessed or triggered by the President, Governors 
and local authorities under certain conditions, and the National 
Oceanic and Atmospheric Administration (NOAA) and the National Weather 
Service (NWS). Broadcasters typically work in partnership with State, 
county and local emergency managers, sheriffs and local police, on how 
best to deploy EAS. For example, about a year ago, the Tennessee 
Association of Broadcasters, with dated equipment and existing funds, 
launched a project with the Nashville Mayor's Office of Emergency 
Management and Mayor Dean's Office to improve our local implementation 
of EAS alerts. The goal of this plan is to enable these local 
authorities to act as the true ``civil authority'' to test our EAS 
system and to create the opportunity for them to initiate any real 
alerts. Unfortunately, we were unable to complete our work in time for 
the recent floods in Nashville, but we do expect to be finished in the 
very near future.
    The content of EAS messages can vary depending on the nature of the 
emergency, but may include information on evacuation plans and routes, 
shelter-in-place instructions, storm paths, and America's Missing: 
Broadcasting Emergency Response Alerts, or Child Abduction AMBER 
Alerts, that help expand the eyes and ears of local law enforcement 
when a child is abducted. In fact, we are extremely proud of our local 
AMBER Alert System in Tennessee, which is one of the most successful 
systems in the country due to our cooperation with the Tennessee Bureau 
of Investigation (TBI). Nationwide, since the inception of AMBER in 
1996, AMBER alerts have helped safely recover more than 500 abducted 
children.\9\ In fact, the Amber Plan was originally created by 
broadcasters with the assistance of law enforcement agencies in the 
Dallas/Ft. Worth area.
---------------------------------------------------------------------------
    \9\ See http://www.missingkids.com/missingkids/servlet/
PageServlet?LanguageCountry=en_US&PageId=991 (last visited July 15, 
2010).
---------------------------------------------------------------------------
    Clearly, EAS participation is an important component of 
broadcasters' public service. Although participation in EAS is 
technically voluntary, virtually all radio and television stations 
participate, and do so proudly. All EAS equipment is purchased by 
broadcasters at their own expense. All stations must test their EAS 
systems on both a weekly and monthly basis. We have all seen or heard 
the familiar announcement: ``The following is a test of the Emergency 
Alert System. This is only a test.''
    In January 2010, the FCC and the Federal Emergency Management 
Agency (FEMA) jointly conducted a statewide test of the EAS in 
Alaska.\10\ Radio and television stations in Alaska coordinated closely 
with Federal and local authorities in Alaska to help ensure the success 
of this test. Their efforts included a comprehensive public awareness 
campaign that provided Alaskans with repeated advance notice of the 
statewide EAS test, and helped to prevent any undue surprise to the 
statewide test.
---------------------------------------------------------------------------
    \10\ Alaska Plans EAS Test Using EAN Code, Radio Magazine (Dec. 31, 
2009), available at http://radiomagonline.com/studio_audio/EAS/
alaska_ean_test_1231.
---------------------------------------------------------------------------
    More recently, the FCC announced its intention to introduce a 
yearly nationwide test of the EAS, starting in 2011.\11\ The broadcast 
industry supports national EAS testing. We are committed to working 
with our Federal and local partners to ensure that the national test is 
useful and informative. In particular, we intend to play a critical 
role in raising advance awareness of the national test. Broadcasters 
are also preparing for the national exercise by reviewing their 
internal EAS equipment and processes, and if appropriate, upgrading 
software or hardware in advance of the national test. Although 
broadcasters provide EAS and in-depth emergency information as part of 
their service to the public, and do so enthusiastically, participating 
in a reliable, functional EAS is not without certain challenges. For 
example, in June 2006, President Bush issued Executive Order 13407, 
entitled Public Alert and Warning System, which states:
---------------------------------------------------------------------------
    \11\ Review of the Emergency Alert System, Second Further Notice of 
Proposed Rulemaking, EB Docket No. 04-296 (rel. Jan. 14, 2010).

    It is the policy of the United States to have an effective, 
reliable, integrated, flexible, and comprehensive system to alert and 
warn the American people . . . establish or adopt, as appropriate, 
common alerting and warning protocols, standards, terminology, and 
operating procedures for the public alert and warning system to enable 
interoperability and the secure delivery of coordinated messages to the 
American people through as many communication pathways as practicable . 
. . administer the Emergency Alert System (EAS) as a critical component 
. . . ensure that under all conditions the President of the United 
---------------------------------------------------------------------------
States can alert and warn the American people.

    In response, FEMA has served as the lead Federal agency for 
developing this program, called the Integrated Public Alert and Warning 
System (IPAWS) Program. Among other things, IPAWS is designed to 
improve public safety through the rapid dissemination of emergency 
messages to as many people as possible over as many communications 
devices as possible. To do this, FEMA's IPAWS program is planning to 
expand the traditional EAS to include additional technologies, to 
capitalize on recent shifts in how many Americans consume information. 
IPAWS will enable Federal, State, territorial, tribal, and local alert 
and warning emergency communication officials to access multiple 
broadcast and other communications pathways for the purpose of creating 
and activating alert and warning messages related to any hazard 
impacting public safety and well-being. Broadcasters are working 
closely with FEMA to ensure that EAS via free, over-the-air television 
and radio remain a critical element of the next generation of EAS and 
public alerting.
    In Tennessee, and nationwide, radio and television stations do a 
commendable job assisting public safety officials in disseminating 
emergency information, whether through our on-air news programming, or 
through EAS. Regarding the latter, we fully intend to continue our 
efforts to devote personnel and attention to making sure that our 
internal EAS systems work properly. However, the ongoing reliability of 
the EAS network will depend on the success of several important 
developments. First, the success of EAS will largely turn on the 
expertise and ability of local authorities to fully deploy EAS and act 
as a ``civil authority'' with full access to the system. In the past, 
some of the isolated instances where EAS could have been used more 
judiciously directly resulted from a lack of awareness or expertise on 
the part of local officials concerning EAS. In this day and age, it is 
unacceptable that some local emergency managers remain unaware of the 
benefits of EAS, or how and when to trigger an EAS alert. I 
respectfully call on this subcommittee to consider funding a 
comprehensive EAS training program for State and local public safety 
officials, so that EAS will continue to work as intended for the 
benefit and safety of all Americans. Such a program could be 
administered through FEMA, which could allocate the funds as needed to 
various local authorities and also design and conduct seminars and 
other educational experiences for local officials and the public 
regarding EAS.
    Second, as mentioned, FEMA is in the midst of implementing a next 
generation of EAS. This new system will modernize the technology and 
computer language used to deliver EAS messages from public safety 
officials to EAS Participants. Under the Commission's existing rules, 
broadcasters and other EAS Participants will be required to process an 
EAS message that is formatted in this new computer language known as 
the Common Alert Protocol (CAP) within 180 days of FEMA's formal 
adoption of standards for the new format. This will be a substantial 
burden for many broadcasters, as it will require the replacement of EAS 
equipment at most radio and television stations. The costs of such new 
equipment are beyond the means of many small broadcast stations, 
especially after the recent severe recession. As a result, it is 
possible that some radio and television stations may be forced to opt 
out of initially participating in EAS going forward. Therefore, I also 
respectfully ask this subcommittee consider funds that could be 
distributed through State emergency management offices to help certain 
broadcasters absorb the costs of replacing their EAS equipment to 
comply with FEMA's directives and standards. Such funds could be 
critical to the success of the next generation of EAS.\12\
---------------------------------------------------------------------------
    \12\ One critical improvement can be achieved without expenditure 
of any funds. Specifically, broadcasters need credentialing from State 
and local authorities to allow them to access their facilities, such as 
studios and antenna towers, during times of emergency. This will enable 
radio and television stations to repair or maintain their equipment and 
fully leverage their resources, local knowledge and training to keep 
the public informed during emergencies. While certain States 
accommodate broadcasters in need of access to their facilities, such 
cooperation is not universal. Congressional action in this area could 
greatly enhance our ability to maintain operations and deliver vital 
information to our audiences.
---------------------------------------------------------------------------
    Third, in Tennessee, we are undertaking an effort to substantially 
improve and modernize our emergency notification plan one county at a 
time. Under this ``perfect'' notification plan, a managed ``system-of-
systems'' would be created through which multiple systems would work 
together to deliver more alerts and warnings more securely, faster, and 
to more people. This statewide program would be designed to take 
advantage of existing investments and future initiatives, including a 
modernized EAS system, and would be poised for connection to any 
national system that is developed. At the same time, however, the plan 
would maintain primary responsibility for alerting at the local level 
and would include the ability to target alerts geographically,
    The goal of this Tennessee statewide notification program would be 
to deliver alerts and warnings throughout the State with sufficient 
capability and speed, in advance of pending disasters, to help prevent 
loss of life and property. The program would be consistent with State 
and Federal initiatives and standards including, but not limited to the 
Tennessee Emergency Response Plan (TEMP), Tennessee Homeland Security 
Strategy, IPAWS, and the CAP. This program will also require funding. 
These funds would be used to create and manage the program, facilitate 
collaboration, develop operational and governance guidelines and 
training, purchase technology, and conduct public outreach.
    The program would be developed collaboratively, engaging 
``communities of interest'' including public safety and others 
responsible for issuing alerts, network providers such as broadcasters, 
cable television operators, and telephone carriers, critical recipients 
of alerts including special needs communities, and relevant 
infrastructure providers, including electrical utilities, healthcare 
systems, and transportation officials. This program for Tennessee would 
be modeled after successful efforts by other States and the Federal 
Government, and attempt to leverage the advantages and lessons learned 
elsewhere.
    The statewide notification program we have in mind would greatly 
expand public participation in emergency communications. Under this 
program, members of the public will be able to indicate their 
preference for how to receive emergency notifications, and improve 
accommodations for the special needs community and non-english speaking 
citizens. We also intend to launch an effective public education and 
awareness program. The program will also help facilitate the management 
of volunteers. Finally, it will significantly enhance the use of EAS by 
local officials, for example, by using technology to enable local 
officials to more easily deploy EAS without interfering with their 
other responsibilities, and enabling officials to use EAS for certain 
non-threatening situations on a local basis, provided such use does not 
interfere with alerts for threatening matters.
    A properly working EAS is a fundamental and essential component of 
our Nation's Homeland Security. It is crucially needed in our State of 
Tennessee to respond to the myriad of potential terrorist threats 
facing our region's target rich environment, including two nuclear 
power plants, and the Oak Ridge National Laboratories, one of the 
world's premiere centers for the United States Department of Energy's 
research and development on energy production. Tennessee also often 
experiences severe weather conditions. Numerous flooding situations 
have hit our State in the past, and even though our broadcast stations 
pride themselves on having the latest in storm-tracking technology, 
Tennessee still leads the Nation in tornado deaths over the past 
decade.
    Perhaps most importantly, the Volunteer State's many major roadways 
are among our Nation's most significant transportation corridors, 
potentially facilitating the transport of dangerous substances such as 
biological, chemical or nuclear waste material. Tennessee is also 
bordered by eight States, meaning that hundreds of thousands of people 
from all over the world travel to and through Tennessee daily via our 
packaging routes, bus lines, and the large regional airports across our 
State. Accordingly, it is imperative that the EAS system, both 
nationally and statewide in Tennessee, receive funding and other 
support necessary to maintain its reliability. The lives of Tennesseans 
could very well depend on it.
    The TAB is thankful to Senator Alexander and this subcommittee for 
hosting this hearing and his support for improving our communications 
to prevent the loss of life and property in the future. As we continue 
to discuss damage estimates, disaster-related costs, and rebuilding our 
communities after the recent sever floods, we must take care not to 
overlook this opportunity to improve public warning and emergency 
communications in advance of the next event, instead of during its 
aftermath.
    Thank you.

    Senator Bennett. Thank you, sir.
    Mr. Mathews.

STATEMENT OF BERT MATHEWS, CHAIRMAN OF THE BOARD OF 
            DIRECTORS, NASHVILLE CHAMBER OF COMMERCE
    Mr. Mathews. Thank you, Senator Alexander and Senator 
Bennett, for inviting the business community to address actions 
to prevent loss of life and property from floods. I bring both 
a personal perspective, as a business owner with flood damage, 
and a broader perspective, as chairman of the Nashville Area 
Chamber of Commerce.
    First of all, thank you for your response to our community. 
Our congressional delegation, FEMA, SBA, and the Departments of 
Commerce, Homeland Security, and Housing and Urban Development 
were on the ground immediately to respond to community needs.
    From our experiences, we've learned three lessons. First, 
with better warning, businesses could have saved hundreds of 
millions of dollars of losses. Second, Federal disaster 
assistance for business needs to be modernized. And third, the 
Federal Government must have mechanisms in place to mitigate 
future disasters.
    In the past 12 weeks, we've worked with government and 
business to gather economic impact information, and we have 
learned the following: More than 2,700 Davidson County 
businesses were impacted, accounting for nearly 15,000 jobs. An 
estimated 450 businesses have not reopened, and more than 1,500 
jobs are unlikely to return. Businesses interviewed to date 
estimate losses over $300 million. Other cities, with past 
floods, report that 30 to 60 percent of businesses affected by 
these floods could possibly fail. And finally, support is 
critical during the first 3 weeks after a flood.
    The flood has had a recession-like impact and damages are 
expected to negate projected GDP gains, which effectively puts 
the region into its third consecutive year of recession.
    Our initial assessments based on actual business 
experiences result in these lessons and recommendations:
    First, timely and accurate warning could have saved 
hundreds of millions of dollars. John Johnson, of Mid-South 
Wire, said he needed timely updates on expected flood levels. 
With 6 more hours of warning, he could have saved $3 to $4 
million worth of inventory and equipment. And Colin Reed, of 
Gaylord Entertainment, said they received inaccurate water-
level predictions and expressed frustration with a lack of 
coordinated and consistent communication between the Army Corps 
of Engineers and the National Weather Service.
    We recommend the Federal Government provide resources to 
the Army Corps of Engineers and the National Weather Service to 
better predict and communicate flood levels, create a 
coordinated communications plan that reaches businesses, and 
integrate business into flood--or into Federal emergency 
response activity.
    Second lesson: Business recovery resources are limited, and 
Federal support needs to be easier, faster, and built to help 
and not frustrate. For example, Ben Jumper of SBA said the--of 
Soundcheck--said the SBA should increase the application loan 
limit from $1 million so that businesses can apply for what 
they need in one application.
    We recommend that the Federal Government modernize and 
maximize disaster assistance to fit into today's business 
needs; increase the SBA initial application loan limits from $1 
million; increase the speed in which the businesses can receive 
funding; and amend the Federal cost-share for FEMA from 75 to 
90 percent.
    Third lesson: Federal agencies must have the mechanisms to 
mitigate the effects of future disasters. Craig Phillip, of 
Ingram Barge, explained the unique Cumberland River 
topography--narrow, with many tributaries, caused the water to 
rise very quickly, necessitating systems to better control 
water flow. Alan Valentine, of the Nashville Symphony, said the 
saturation of groundwater and the water table beneath the 
Schermerhorn Symphony Center created a situation where there 
was nowhere for the water to go.
    So, we recommend that the Federal Government assess how the 
Army Corps of Engineers can better mitigate floods through the 
Cumberland River's current dam system and provide the National 
Weather Service with modeling capabilities to better predict 
and communicate flood levels.

                           PREPARED STATEMENT

    In conclusion, personal and job recovery must go hand-in-
hand. Businesses and their employees experienced incredible 
losses that could have been prevented. We know our 
recommendations come with a cost, but we hope you will find our 
presentation helpful as you consider how to prevent this level 
of loss again.
    Again, thank you for what the Federal Government has done 
today.
    [The statement follows:]

                   Prepared Statement of Bert Mathews

    Thank you Senator Alexander, Senator Dorgan and Members of the 
Senate Energy and Water Development Appropriations Subcommittee for 
inviting the business community to address actions to prevent loss of 
life and property from floods.
    I bring both a personal perspective, as a business owner with flood 
damage, and a broader perspective, as chairman of the Nashville Area 
Chamber of Commerce.
    First of all, thank you for your response to our community. Our 
congressional delegation, FEMA, HUD, SBA, and the Departments of 
Commerce and Homeland Security were on the ground immediately to 
respond to community needs.
    From our experiences, we've learned three lessons:
  --First: With better warning, businesses could have saved hundreds of 
        millions of dollars of losses;
  --Second: Federal disaster assistance for business needs to be 
        modernized; and
  --Third: The Federal Government must have mechanisms in place to 
        mitigate future disasters.
    In the past 12 weeks, we have worked with government and business 
to gather economic impact information and have learned that:
  --More than 2,700 Davidson County businesses were impacted, 
        accounting for nearly 15,000 jobs;
  --An estimated 450 businesses have not reopened, and more than 1,500 
        jobs are unlikely to return;
  --Businesses interviewed to date estimate losses over $300 million;
  --Of these businesses, operating capacity is 39 percent and is 
        expected to be 67 percent in 12 months;
  --Other cities with past floods report that 30-60 percent of 
        businesses affected could fail; and
  --Support is critical in the first 3 weeks.
    The flood has had a recession-like impact. Damages are expected to 
negate projected GDP gains, which effectively puts the region into its 
third consecutive year of recession.
    Our initial assessment based on actual business experiences results 
in these lessons and recommendations:
    First Lesson: Timely and accurate warning could have saved hundreds 
of millions of dollars.
    John Johnson of Mid-South Wire said he needed timely updates on 
expected flood levels. With 6 more hours of warning, they could have 
saved $3-$4 million of inventory and equipment.
    Colin Reed of Gaylord Entertainment Company said they received 
inaccurate water level predictions and expressed frustration with the 
lack of coordinated and consistent communication between the Army Corps 
of Engineers and National Weather Service.
    We recommend the Federal Government:
  --Provide resources to the Army Corps of Engineers and National 
        Weather Service to better predict and communicate flood levels 
        and impact;
  --Create a coordinated communications plan that reaches business; and
  --Integrate business into Federal emergency response activity.
    Second Lesson: Business recovery resources are limited. Federal 
support needs to be easier, faster and built to help, not frustrate.
    Denise Full of Custom Fit Accounting and Tax said the SBA could not 
fill her immediate capital and cash flow needs.
    Ben Jumper of Soundcheck said the SBA should increase the 
application loan limit from $1 million so businesses can apply for what 
they need in one application.
    We recommend the Federal Government:
  --Modernize and maximize disaster assistance to fit today's business 
        needs;
  --Increase SBA initial application loan limits from $1 million;
  --Increase the speed in which businesses can receive funding;
  --Amend the Federal cost-share for FEMA from 75 to 90 percent;
  --Adequately fund Federal disaster assistance; and
  --Determine what Federal information about damaged businesses can be 
        shared with local business organizations to accelerate response 
        and recovery.
    Third Lesson: Federal agencies must have the mechanisms to mitigate 
the effects of future disasters.
    Craig Phillip of Ingram Barge Company explained that the unique 
Cumberland River topography--narrow with many tributaries--caused the 
water to rise very quickly, necessitating systems to better control 
water flow.
    Alan Valentine of the Nashville Symphony said the saturation of the 
ground and water table beneath the Schermerhorn Symphony Center created 
a situation where there was nowhere for the water to go.
    We recommend the Federal Government:
  --Assess how the Army Corps of Engineers can better mitigate floods 
        through the Cumberland River's current dam system; and
  --Provide the National Weather Service with modeling capabilities to 
        better predict and communicate flood levels.
    In conclusion, personal and job recovery must go hand-in-hand. 
Businesses and their employees experienced great losses that could have 
been prevented.
    We know our recommendations come with a cost, but we hope you find 
our presentation helpful as you consider how to prevent this level of 
damage and loss in the future.
    Thank you again for all the Federal Government has done--and will 
continue to do--for our communities' emergency response and recovery 
efforts and for the opportunity to be here.

    Senator Bennett. Thank you all for your testimony.
    Senator Alexander.
    Senator Alexander. Thanks, Senator Bennett.
    Thanks, to the four of you, for your testimony.
    Mayor Dean, I know you have a plane to catch, so if you 
need to leave to do it, please feel free. But, I want to ask 
you a question, if you have a moment.
    First, I'd like to--I think it's important to say, from 
first-hand observation, how impressed not only I was, but I 
think most Tennesseans were, with the leadership of Governor 
Bredesen, and most especially, with Mayor Dean, Mayor Hodges, 
and other local officials, whether it's Clarksville, Ashland 
City, other places.
    I mean, I think you're right, Mayor Dean, I think Nashville 
was ready.
    And, Mayor Hodges, I think Millington was ready.
    And the spirit there that--and the quiet confidence that 
the leadership demonstrated has been enormously helpful to the 
city's future, despite the fact that it's all in a midst of a 
tragedy. And I think it is important--we have many examples we 
can point to when we don't like what government is doing. Here 
is a whole series of opportunities to catch various levels of 
government doing something right. And I think there's almost 
unanimous agreement in Tennessee that FEMA did a good job. They 
were on time, they--it was easy to get in touch with them. They 
didn't do everything everybody wanted, but in the last 2\1/2\ 
months, they've done a good job.

                    BENEFIT OF FORECAST IMPROVEMENTS

    And, Mayor Dean, my question is this. You've--you heard Mr. 
Mathews cite some specific examples in Nashville that--from 
businesses--about how much money could have been saved from an 
earlier, better forecast. And you heard the earlier testimony. 
What would have been the difference if you, as mayor, and if 
your citizens in Nashville, had received a more accurate, 
clearer forecast on Sunday morning about the flood coming, 
rather than one on Sunday night?
    Mr. Dean. Well, I could only speculate that we'd probably 
ask more citizens to evacuate or give people a warning----
    Senator Alexander. What----
    Mr. Dean [continuing]. That they----
    Senator Alexander [continuing]. Push your button.
    Mr. Dean. We could ask more people to evacuate or give 
businesses and citizens an opportunity to move property that 
could be endangered. Although, we did, based on information we 
were getting, and some of our uncertainty as the reliability of 
information--for instance, we ordered the evacuation of 
MetroCenter, which did not flood, but we were fearful that it 
could, and that, if it did flood, it would be very harmful to 
people and to property. So, we made that determination on our 
own, and we evacuated areas of downtown, the First Avenue area.
    You know, I think, clearly, the key thing is, we need to 
know the most accurate information available and then make the 
very best decisions we can. I don't--I think it's difficult, in 
any emergency, to get that information, and it's also difficult 
to make the necessary decisions, but you've got to at least 
have an opportunity to have the best information available. And 
so, anything we can do, and the Federal Government can do--to 
improve what's already been identified and, I think, 
acknowledged by all parties as a serious lack of communication 
between the Weather Service and the Corps of Engineers that 
should be addressed.
    I also would recommend--and I've only had a very cursory 
opportunity to look at the draft from the Corps--that one of 
the areas they have a challenge on is how they communicate with 
local governments. And I'd say that's the National Weather 
Service, too. The local governments are the people with their 
feet on the ground who are responding to these crises on a 
minute-by-minute basis. And I think they need to be much more 
proactive in reaching out and contacting local governments. 
They need to be much more aggressive in getting information to 
local governments. That's my major lesson from all of this.
    Senator Alexander. Mayor Hodges, the rain came a little 
earlier in west Tennessee, as it always does, than it did in 
Nashville. What if you've had 10 or 12 hours earlier, a clearer 
forecast of what was coming, could you have done anything about 
it, or not?
    Mr. Hodges. One thing fortunate for us is the fact that 
we're a lot smaller than Nashville. And we did have, I feel, 
sufficient notice. I think what helped us tremendously was the 
fact that Chief Graves virtually responded just about on the 
first notice from the National Weather forecast, on Thursday, 
that rain was coming, and tornadoes, and he actually started, 
with our department heads, in preparation on Friday. So, we 
were actually in full-scale evacuation and preparedness the 
second the rain started, early Saturday morning.
    So, I give credit to our chief for not waiting maybe a day 
or two to just see how bad it was, for acting early on it. That 
helped us a lot.

            IMPOVING EMERGENCY INFORMATION FOR BROADCASTERS

    Senator Alexander. Mr. Adamson, you've heard the discussion 
about information, and it seems to me it's not just accurate 
information and timely information, but if the information's in 
Greek, nobody's going to be able to understand it. So, the 
information has to be translated, as the Corps' own report 
said, into some form so that businesses, citizens understand 
it.
    What's your reaction to all this discussion about the work 
broadcasters have done to improve communication about tornados, 
and whether any lessons from that could--or alliances could be 
formed to do the same kind of thing with information about 
floods, since flooding actually is three out of four of the 
federally declared disasters that we have in this country?
    Mr. Adamson. I think we've heard, today, that maybe the 
forecasting could be similarly improved. And you're exactly 
right, Senator, that our broadcasters are only as good as the 
information that comes to us, either to our news departments or 
to our emergency alerting system. And it has to be in an 
understandable form for both viewers and listeners. And that's 
what we would look forward to the most, to be sure that we're 
in that link. We've spent an awful lot of time and money, 
mostly since 9/11, improving our interoperability so these 
firefighters and law enforcement and emergency management 
people can do their jobs and communicate with each other. And 
my business thinks that its due time for us to maybe leap 
forward to prevention instead of--or including rebuilding----
    Senator Alexander. Yes. Well, who----
    Mr. Adamson [continuing]. Which would improve these 
systems.
    Senator Alexander. If I may ask a minute, who came up with 
the way that television stations and radio stations let us know 
about tornadoes? I mean, that must have taken a lot of 
tremendous effort and cooperation between the National Weather 
Service and other agencies. And is there the same kind of 
effort going on to try to--on the part of broadcasters, do they 
have the same incentive to try to get a similar alliance going 
on floods?
    Mr. Adamson. Yes, sir. I know you remember those whiteboard 
days or chalk----
    Senator Alexander. Yes.
    Mr. Adamson [continuing]. Days of weather reporting. And 
certainly the stations buy an awful lot of expensive 
equipment----
    Senator Alexander. Yes.
    Mr. Adamson [continuing]. Just so that they can stay right 
on top of whatever is available out there equipment wise. And 
certainly the National Weather Service has done a phenomenal 
job with their forecasters and their equipment.

                BENEFITS OF EARLY EMERGENCY NOTIFICATION

    Senator Alexander. Mr. Mathews, you've been very specific. 
I'll ask you the same question I asked Mayor Dean. If there had 
been a weather forecast on Sunday morning, say at 10 a.m., 
instead of Sunday evening, at around 10 a.m., that gave 
Nashville businesses accurate information about the rising 
water, based on your testimony that would have saved tens of 
millions of dollars. Is that--am I overstating that?
    Mr. Mathews. You are not overstating it, Senator. And let 
me give you a couple of more specific examples. A.O. Smith is 
a--manufactures water heaters in Cheatham County, and they lost 
$18 million in finished-good inventory of finished water 
heaters. They were pulling their trailers, empty, out of their 
lot to keep the trailers from flooding. If they had had 
adequate notice, they could have filled those trailers with 
those water heaters and gotten them out of the flood.
    In five, six, seven different companies that I've talked to 
personally, each of them have said, ``With adequate warning, we 
could have moved millions of dollars worth of extremely 
valuable equipment, records, out of the way.'' And it related 
specifically to inadequate warning.
    Senator Alexander. Senator Bennett, I think this has been a 
very helpful first step at getting a clear picture of what 
actually happened in Tennessee, from Nashville to the 
Mississippi River, on April 30 through the weekend of May 1 and 
2, and beyond. And I think the jury's still out on whether the 
Army Corps of Engineers could have managed the water better and 
differently in a way to have reduced flooding. I'm--I think my 
questions that I'll ask following the hearing, in writing, and 
the answers we expect to get, and careful study of the after-
action report, and the Corps' own self-examination, will answer 
those questions.
    But, I think what the jury is not out on is that we have 
a--an inferior system of reporting timely, accurate information 
about rising water and flooding in a way that people who need 
to know about it can understand it. And when you hear the 
numbers talked about here, hundreds of millions of dollars, $2 
billion of damage to the private sector in Nashville, Federal 
taxpayers already handing over a quarter of a billion dollars 
to 64,000 Tennesseans, there are lots of people I know in 
Nashville who just cleaned up their basement and bought their 
new water heaters, and paid for it themselves. You know, we'll 
never--it's a tremendous amount of money.
    It seems to me that a major focus of the Federal 
Government--and maybe this hearing and this subcommittee can 
help--is to corral the Federal agencies and say, ``Give us a 
plan or give us some options about how we can do, with 
information about flooding, what we already do about 
tornados,'' and see if we can move that along, not just for 
Tennessee, but for Utah and North Dakota, since three out of 
four of the federally declared disasters are flooding.
    Floods aren't as spectacular on television, I guess, as a 
tornado coming. But, as we've seen today, they can be much more 
damaging and kill many more people.
    So, I'm very grateful to you, Senator Bennett, and to 
Senator Dorgan, for taking so much of your time to look at the 
Tennessee flood. But, I believe it has lessons for our country.
    And I'm especially grateful to the Tennesseans for taking 
time to come here today to let us put the spotlight on not only 
a tragedy, but dozens of examples of catching citizens and 
their locally elected leaders doing things right and, in some 
cases, heroically.
    Senator Bennett. Thank you very much.
    I appreciate being informed on this. I realized there was a 
terrible problem, but you've filled in a lot of details for me, 
and I'll do my best to be as cooperative as I can on this 
subcommittee--and Senator Dorgan will be, as well--to do what 
we can to more further steps in the right direction.

                         CONCLUSION OF HEARING

    I want to close the hearing with the comments that Senator 
Corker made, however, in opening the hearing. For all of the 
difficulties and challenges, Tennessee has demonstrated a 
tremendous capacity to deal with the problem themselves. 
Whatever the communications, difficulties, and challenges 
within the Federal agency, there is no indication of anybody 
not stepping up to the plate as best he or she could under the 
circumstances. And for that, we are all grateful, even as we 
look for additional solutions.
    With that, the hearing is recessed.
    [Whereupon, at 11:32 a.m., Thursday, July 22, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
